<html>
<title> - PROTECTING DREAMERS AND TPS RECIPIENTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 PROTECTING DREAMERS AND TPS RECIPIENTS

=======================================================================

                                 HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             MARCH 6, 2019

                               ----------                              

                            Serial No. 116-5

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


    Available on: http://www.judiciary.house.gov or www.govinfo.gov


                                  __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-231 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5e2e311e3d2b2d2a363b322e703d313370">[email&#160;protected]</a>          


                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas            Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, JR. 
HENRY C. ``HANK'' JOHNSON, JR.,          Wisconsin
    Georgia                          STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida          LOUIE GOHMERT, Texas
KAREN BASS, California               JIM JORDAN, Ohio
CEDRIC L. RICHMOND, Louisiana        KEN BUCK, Colorado
HAKEEM S. JEFFRIES, New York         JOHN RATCLIFFE, Texas
DAVID N. CICILLINE, Rhode Island     MARTHA ROBY, Alabama
ERIC SWALWELL, California            MATT GAETZ, Florida
TED LIEU, California                 MIKE JOHNSON, Louisiana
JAMIE RASKIN, Maryland               ANDY BIGGS, Arizona
PRAMILA JAYAPAL, Washington          TOM MCCLINTOCK, California
VAL BUTLER DEMINGS, Florida          DEBBIE LESKO, Arizona
J. LUIS CORREA, California           GUY RESCHENTHALER, Pennsylvania
MARY GAY SCANLON, Pennsylvania,      BEN CLINE, Virginia
    Vice-Chair                       KELLY ARMSTRONG, North Dakota
SYLVIA R. GARCIA, Texas              W. GREGORY STEUBE, Florida
JOE NEGUSE, Colorado
LUCY MCBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                           
                           
                             C O N T E N T S

                              ----------                              

                             MARCH 6, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Jerrold Nadler, New York, Chairman, House Committee 
  on the Judiciary...............................................     1
The Honorable Doug Collins, Georgia, Ranking Member, House 
  Committee on the Judiciary.....................................     3
The Honorable Zoe Lofgren, California, Chair, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     6
The Honorable Ken Buck, Colorado, Ranking Member, Subcommittee on 
  Immigration and Citizenship, House Committee on the Judiciary..     7

                               WITNESSES

Mr. Jin Park, DACA Recipient, Harvard University Undergraduate 
  Student, Rhodes Scholar
  Oral Statement.................................................    10
  Prepared Statement.............................................    13
Ms. Yatta Kiazolu, DED Recipient, University of California, Los 
  Angeles PhD Candidate
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Ms. Yazmin Irazoqui-Ruiz, DACA Recipient, University of New 
  Mexico Medial Student
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. Jose Palma, TPS Recipient, National Coordinator, National TPS 
  Alliance
  Oral Statement.................................................    30
  Prepared Statement.............................................    32
Mr. Donald E. Graham, Chairman of the Board, Graham Holdings 
  Company; Co-Founder, TheDream.US
  Oral Statement.................................................    37
  Prepared Statement.............................................    39
The Most Reverend Bishop Mario Eduardo Dorsonville-Rodriguez, 
  Auxiliary Bishop, Archdiocese of Washington
  Oral Statement.................................................    41
  Prepared Statement.............................................    43
Mr. Hilario Yanez, DACA Recipient, University of Houston Graduate
  Oral Statement.................................................    51
  Prepared Statement.............................................    54
Mr. Andrew R. Arthur, Resident Fellow in Law and Policy, Center 
  for Immigration Studies
  Oral Statement.................................................    56
  Prepared Statement.............................................    58

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Dick Durbin, Senator of the 
  State of Utah, Submitted by the Honorable Jerrold Nadler.......    61
Prepared Statement of the New York Immigration Coalition, 
  Submitted by the Honorable Jerrold Nadler......................    64
United States Department of Homeland Security Press Release 
  entitled, ``Humanitarian and Security Crisis at Southern Border 
  Reaches `Breaking Point,' '' dated March 6, 2019, Submitted by 
  the Honorable Doug Collins.....................................    71
Washington Post Article Entitled, ``Record number of families, 
  cold reality at border,'' dated Mar. 4, 2019, Submitted by the 
  Honorable Doug Collins:........................................    77
New York Times Article Entitled, ``Border at `Breaking Point' as 
  More Than 76,000 Unauthorized Migrants Cross in a Month,'' 
  dated Mar. 5, 2019, Submitted by the Honorable Doug Collins....    85
Prepared Statements of African Communities Together; United We 
  Dream; UnidosUS; TheDream.US; Pennsylvania Immigration and 
  Citizenship Coalition; National Immigration Law Center; Mainers 
  for Accountable Leadership; Latin American Working Group; Fair 
  Immigration Reform Movement; Center for Law and Social Policy; 
  Coalition for Humane Immigrant Rights; Center for America 
  Progress article entitled, ``TPS Workers Rebuilding States 
  Devastated by National Disasters''; Amnesty International; and 
  the American Immigration Lawyers Association; Submitted by the 
  Honorable Zoe Lofgren..........................................    95
Cato at Liberty Report Entitled, ``DACA Definitely Did Not Cause 
  the Child Migrant Crisis,'' Submitted by the Honorable Zoe 
  Lofgren........................................................   153
Letter from a Coalition of 30 Labor Groups, Submitted by the 
  Honorable David N. Cicilline...................................   175
Prepared Statement of the Service Employees International Union, 
  Submitted by the Honorable David N. Cicilline..................   178
Letter and Report from the National Association of Manufacturers, 
  Submitted by the Honorable Greg Stanton........................   189
Prepared Statements of the Society for Human Resource Management; 
  TechNet; and, the United States Chamber of Commerce; Submitted 
  by the Honorable Greg Stanton..................................   192
Prepared Statements of the American Friends Service Committee; 
  Church World Services; Friends Committee on National 
  Legislation; Good Shepherd Sisters National Advocacy Center; 
  Jewish Council for Public Affairs; Materials from the United 
  States Conference of Catholic Bishops; the Episcopal Church; 
  and, the Unitarian Universalist Service Committee; Submitted by 
  the Honorable Sheila Jackson Lee...............................   203
President Ronald Reagan's 1989 Farewell Address, Printed by the 
  New York Times on Jan. 12, 1989, Submitted by the Honorable Ted 
  Lieu...........................................................   267
Center for America Progress article entitled, ``TPS Workers 
  Rebuilding States Devastated by National Disasters,'' Submitted 
  by the Honorable Mary Gay Scanlon..............................   287
Statements of the National Education Association; and, the 
  President's Alliance for Higher Education and Immigration; 
  Submitted by the Honorable Madeleine Dean......................   299
President Barack Obama's 2017 Address on DACA; Submitted by the 
  Honorable Madeleine Dean                                          315

                                APPENDIX
               Material Submitted for the Hearing Record

Southern Poverty Law Center Article Entitled, ``More Than An 
  Occasional Crank: 2,012 Times the Center for Immigration 
  Studies Circulated White Nationalist Content,'' Dated May 23, 
  2017, Submitted by the Honorable Hank Johnson..................   317
New York Times Article Entitled, ``The Anti-Immigrant Crusader,'' 
  Dated Apr. 17, 2011, Submitted by the Honorable Hank Johnson...   322
Prepared Statement of Adhikaar...................................   332
Prepared Statement of Asian Americans Advancing Justice..........   334
Prepared Statement of the Immigrant Legal Resource Center........   337
Prepared Statement of the National Korean American Service and 
  Education Consortium...........................................   340
Prepared Statement of the National Roofing Contractors 
  Association....................................................   341
Prepared Statement of the National Task Force to End Sexual and 
  Domestic Violence..............................................   343
Prepared Statement of NETWORK Lobby for Catholic Social Justice..   345
Prepared Statement of New American Economy.......................   347
Prepared Statement of South Asian Americans Leading Together.....   348

 
                 PROTECTING DREAMERS AND TPS RECIPIENTS

                              ----------                              


                        WEDNESDAY, MARCH 6, 2019

                       House of Representatives,

                      Committee on the Judiciary,

                            Washington, DC.

    The committee met, pursuant to call, at 10:12 a.m., in Room 
2141, Rayburn Office Building, Hon. Jerrold Nadler [chairman of 
the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, H. Johnson, Deutch, Bass, Jeffries, Cicilline, Lieu, 
Raskin, Jayapal, Correa, Scanlon, Garcia, Neguse, McBath, 
Stanton, Dean, Mucarsel-Powell, Escobar, Collins, 
Sensenbrenner, Chabot, Gohmert, Jordan, Buck, Ratcliffe, Gaetz, 
Biggs, McClintock, Lesko, Reschenthaler, Cline, and Armstrong 
and Steube.
    Staff present: Joshua Breisblatt, Counsel; Rachel Calanni, 
Professional Staff Member; Betsy Lawrence, Counsel; David 
Shahoulian, Chief Counsel, Subcommittee on Immigration and 
Citizenship; Madeline Strasser, Chief Clerk; David Greengrass, 
Senior Counsel; Susan Jensen, Senior Counsel and 
Parliamentarian; Andrea Loving, Minority Chief Counsel, 
Subcommittee on Immigration and Citizenship; Jon Ferro, 
Minority Parliamentarian; Erica Barker, Minority Legislative 
Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order. Without objection, the chair is authorized to declare 
recesses of the committee at any time.
    We welcome everyone to this morning's hearing on 
``Protecting Dreamers and TPS Recipients.'' I will now 
recognize myself for an opening statement.
    Today's hearing examines the critically important issue of 
delivering permanent protections including a path to 
citizenship for Dreamers and recipients of Temporary Protected 
Status, known as TPS, or a similar authority known as Deferred 
Enforcement Departure, or DED.
    This hearing takes on a greater urgency in light of the 
Trump administration's decisions to dismantle current 
protections for Dreamers and recipients of TPS and DED--actions 
that have thrown hundreds of thousands of families into 
turmoil, fear, and uncertainty.
    Dreamers are young undocumented people who were brought to 
this country as children and who have lived here for most of 
their lives. They are our neighbors, they are our children's 
classmates, and they serve in our military with distinction.
    Many Dreamers do not even know they are undocumented until 
they are in their teens and are approaching adulthood. They 
then discover that they are unable to work legally, to travel 
abroad, to obtain driver's licenses in most states, to obtain 
federal financial assistance for post-secondary education or 
even in most states to attend a college or university at the 
in-state tuition rates that the U.S. citizen and lawful 
permanent resident classmates and their younger U.S. citizen 
siblings pay.
    And suddenly the bright future they imagined for themselves 
may seem out of reach. To help encourage these young people to 
come out of the shadows and to enable them to contribute more 
fully to their communities, in June 2012 Secretary of Homeland 
Security Janet Napolitano announced the Deferred Action for 
Childhood Arrivals initiative, or DACA.
    DACA is an exercise of prosecutorial discretion providing 
temporary relief from deportation and work authorization to 
Dreamers who meet certain criteria. DACA has enabled almost 
800,000 eligible young adults to work lawfully, to attend 
school, and to plan their lives without the constant threat of 
deportation.
    In September 2017, however, the Trump administration 
announced the end of DACA, threatening to remove these young 
people from the only country many of them have ever known. That 
is why it is more important than ever than Congress enact 
permanent protections for this vulnerable population.
    For nearly two decades various proposals have been 
introduced to address this issue and the DREAM Act almost 
passed both chambers in 2010.
    But despite bipartisan support in Congress and the support 
of nearly three-quarters of the American public, legislation 
has never been enacted. Today's hearing, hopefully, is the 
first step toward ending that injustice.
    Dreamers are an essential part of our communities and they 
are critical to building a future America that is strong, 
united, and economically and socially vibrant. Very much the 
same can be said for those who have temporary protected status, 
or TPS. Our immigration laws authorize the secretary of 
homeland security to designate countries for TPS in response to 
armed conflict, natural disaster, or other extraordinary 
circumstances.
    Persons from TPS countries in the United States at the time 
the designation is announced can remain here lawfully for the 
duration of the designation and can receive work authorization.
    The president also has the discretion to provide similar 
relief known as deferred enforced departure, or DED. Several 
hundred thousand foreign nationals from 10 countries currently 
have TPS and nearly 750 Liberian nationals have DED-related 
work authorizations.
    Most of these TPS and DED recipients have lived lawfully in 
the United States for more than 20 years and they have built 
lives, families, and businesses in this country. Once people 
lay down such deep roots in this country it would be cruel, not 
to mention economically counterproductive, to remove them from 
their communities and from the lives and businesses they have 
built over the course of decades.
    But the administration has decided to do just that. It has 
announced the termination of TPS for six countries representing 
98 percent of TPS recipients currently in the United States.
    Protections for Liberian DED holders are also scheduled to 
be terminated by the end of this month. If these vital 
protections are removed, hundreds of thousands of people, 
people who are integral parts of our communities who have lived 
here often for more than 20 years, will be torn from our midst 
and sent to countries where they no longer have much 
connection, where they may not even be able to speak the 
language of those countries, and where they may face alarming 
levels of poverty and violence.
    If the Trump administration is permitted to go forward with 
its plans to cancel TPS and DED status, it could be responsible 
for an utterly avoidable humanitarian disaster.
    Fortunately, the courts have once again stepped in to stop 
this administration's divisive efforts to advance its anti-
immigrant agenda. Courts have issued multiple injunctions 
against efforts to terminate DACA and several of the cancelled 
TPS designations.
    But even if the courts ultimately rule against the 
administration it would only result in partial relief. This is 
because those currently with DACA represent less than half of 
all Dreamers.
    Only four of the six terminated TPS designations are 
currently being blocked by the courts and neither DACA nor TPS 
by their nature provide permanent protections.
    Thus, preserving the status quo would mean that only a 
fraction of Dreamers and TPS recipients will benefit and that 
benefit will only serve as a temporary reprieve. That is why 
passing legislation that provides permanent protection and a 
pathway to citizenship for Dreamers and TPS recipients is a top 
priority for this committee and for the House of 
Representatives.
    I am heartened by the fact that at least seven and possibly 
all eight witnesses before us today support the goal of 
permanently protecting our friends, neighbors, and loved ones 
who are Dreamers and TPS or DED recipients.
    For the sake of our economy, our communities, and our 
humanity, I hope we can move forward in a bipartisan way 
finally to provide the permanent protections these individuals 
need and deserve.
    It is now my pleasure to recognize the ranking member of 
the Judiciary Committee, the gentleman from Georgia, Mr. 
Collins, for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman, and I appreciate the 
opportunity to discuss what is really an important issue and 
one that has come up many times before this committee.
    Unfortunately, legislation to provide legal status to 
certain illegal immigrant populations isn't a new topic. In 
fact, in Congress we have been here before. These discussions, 
though, help.
    As members of Congress not to repeat the mistakes made when 
such legislation or orders were drafted, we must also ensure 
that any legislation avoids mistakes previous administrations 
made when they implemented mass legalizations.
    It is our responsibility to provide guidance to the 
administration about the congressional intent behind our laws. 
It is my hope on this issue and the intent of every member of 
the House and Senate is to provide for a legal status for some 
of the illegal immigrant population and to not find ourselves 
back in this same position having this same conversation five, 
10, or 20 years down the road.
    The majority of House Republican caucuses voted to provide 
a legal status for some of the current illegal immigrant 
populations, namely, recipients of the last administration's 
Deferred Action for Childhood Arrivals program.
    We supported such a legal status because the reality of 
deferred action has real consequences for people whose parents 
brought them here, people who did not make the conscious choice 
to violate the law.
    We are also supported--we also support legal status for 
DACA recipients because the bill gave us a path forward out of 
the legal confusion and incorporated enforcement measure to 
reduce illegal immigration in fact which was pointed out by a 
former member of this committee, Mr. Gutierrez, who pointed out 
this problem many, many times from this dais.
    Congress's penchant for kicking the immigration can down 
the road is unsustainable and unfair to American citizens, 
legal immigrants, and everyone who respects our generous 
immigration system and hopes to make the country their home.
    The only way to protect against the legislative deja vu 
that has in the past made promises that weren't kept is to 
ensure that the administration has the right tools to secure 
our borders and enforce our laws. Right now, that is not the 
case.
    As I noted at last week's hearing, years of inconsistent 
enforcement and limited resources have fueled illegal 
immigration into the United States. For evidence of that, we 
need to look no further than our southern border.
    Yesterday CBP released data showing over 66,000 people were 
apprehended between the ports of entry last month. Family unit 
apprehensions are up more than 300 percent over the same time 
last year and let us not forget about the 70 groups of over 100 
immigrants entering illegally that Border Patrol has 
apprehended this fiscal year and I think this was pointed out 
very well in the New York Times today discussing this crisis 
that is emerging.
    Mr. Chairman, we cannot discuss the illegal immigrant 
population without also recognizing those who have entered 
legally and make a conscious decision to stay longer than their 
visas allow.
    In recent history, an estimated 40 percent of all illegal 
immigrants have overstayed their visas. DHS has estimated that 
just over 600,000 aliens overstayed their admission period 
during fiscal year 2017. It is not all about coming across our 
border. There is a problem here that we have to fix in a bigger 
sense.
    We must, therefore, balance interior enforcement and border 
security and we cannot neglect either priority. Day after day, 
parents give their children to smuggling cartels. Employers 
have no reliable way of verifying an employee's work 
eligibility documents, and adults who drag children through the 
dangerous border crossings are rewarded with release into 
America's interior.
    That status quo isn't practical and it is not compassionate 
and it is absolutely not sustainable. For this reason, any bill 
legalizing certain populations must include robust anti-fraud 
measures.
    Experts have determined up to two-thirds of the applicants 
for the 1986 special agricultural worker amnesty were 
fraudulent because aliens submitted fake affidavits and 
documents from their employers to substantiate their claim that 
they had met the legislation's requirement when they had not.
    Unfortunately, most of the fraudulent applications were 
approved. So why does that matter? Who suffers when we allow 
our immigration system to fail?
    Well, one of the terrorists who perpetrated the 1993 World 
Trade Center attack received that special agricultural worker 
status despite the fact he was a taxi driver, not a farm 
worker, when he applied for that status.
    Sadly, it is very telling that the only witnesses today who 
support anti-fraud measures and enforcement were invited by our 
side. Most of my--my Democratic colleagues know without 
including sufficient measures addressing fraud and enforcement 
of border security any bill that we move on the House floor 
will get few, if any, Republican votes.
    They know that if they admit such common sense measures no 
bill will they pass--or in consideration in the Senate and they 
know that if they refuse to include these crucial pieces not 
bill they pass will see a presidential signature.
    So I implore my colleagues, democratically, to give us a 
bill to legalize some of the illegal immigrant population, to 
secure our border, and to enforce the law inside our country. 
Any bill granting mass legalization and shunning real 
enforcement measures will be opposed by Republicans for the 
stunt that it is.
    Today I look forward to hearing the ideas that my 
Democratic colleagues have to stem the tide of illegal 
immigration because I have yet to encounter even one idea from 
the other side that would give us a long-term solution and 
restore America's integrity in its immigration system.
    When I ask what their plan is, the only chorus many times I 
hear is just pass the DREAM Act. That is not a plan. It is a 
talking point. That bill doesn't even attempt to address 
illegal entry, fraud, or visa abuse.
    If we don't offer real solutions that consider legal status 
and enforced immigration law, we will undoubtedly repeat the 
problems from the past years from now and history will judge us 
for shirking our responsibility.
    I hope today produces honest conversation about the 
consequences illegal immigration has for American citizens and 
those who aspire to become American citizens and people who 
suffer when others abuse our system.
    I look forward to the witnesses' testimony and hope we 
truly can, as someone who has talked about this many times, 
find a solution that works long term and not simply something 
that puts us in legal peril continually down the line.
    And with that, I yield back the balance of my time, Mr. 
Chair.
    Chairman Nadler. Thank you, Mr. Collins.
    It is now my pleasure to recognize the chair of the 
Subcommittee on Immigration and Citizenship, the distinguished 
gentlewoman from California, Ms. Lofgren, for her opening 
statement.
    Ms. Lofgren. Thank you, Chairman Nadler, and welcome to the 
panel of witnesses. And more than 10 years ago, I had the honor 
of chairing a hearing before the Immigration Subcommittee to 
shine a spotlight on the plight of undocumented young people 
who had been brought to the United States as children.
    At that hearing, we were inspired by the personal stories 
of three courageous young women, all in their early 19, 20s, 
who grew up in America and despite the difficulties they faced 
without immigration status, they embraced this country as their 
own. With the support of families, friends, and communities, 
they chased their dreams.
    I am still saddened by the tragic death of one of these 
young women, Tam Tran, who was taken from us in a car accident 
in 2010. But I am heartened by the knowledge that Martin Calla, 
who was an orphan, who fought deportation for seven years is 
now a U.S. citizen.
    Ten years ago, and we still have not solved this problem. 
We revisit this issue again today, something we have been 
trying to solve for two decades.
    Eighteen years ago, the first iteration of the DREAM Act 
was introduced and the term Dreamer was coined. Eighteen years 
ago, the Dreamers who appear before us today to share their 
stories were children or not even yet born who couldn't 
possibly envision the challenges they would face and the things 
they would go on to accomplish in the United States.
    Needless to say, 18 years later their plight is not over. 
Today, approximately 800,000 people, including some of our 
witnesses have been granted temporary reprieve from removal 
through the Deferred Action for Childhood Arrival, or DACA 
program.
    DACA has allowed them to work legally, pursue their higher 
education dreams, and plan tentatively for their futures in 
America. But DACA is not enough.
    It temporarily protects only a small portion of Dreamers 
and, if the administration ultimately wins in courts--in court, 
DACA could be a thing of the past and far too many young people 
will be plunged back into the shadows.
    Also 18 years ago the world experienced additional events 
that would ultimately contribute to today's immigration debate. 
While recovering from the effects of Hurricane Mitch, El 
Salvador was devastated by two major earthquakes which 
triggered multiple landslides, caused the death or injury of 
thousands and displaced an estimated 1.6 million people.
    As a result, then President George W. Bush designated El 
Salvador for temporary protected status, providing security to 
Salvadorian nationals in the U.S. and relief to that nation as 
it began the long and arduous process of rebuilding.
    With this designation, El Salvador joined its neighbors, 
Honduras and Nicaragua, which were more directly impacted by 
Mitch and had received TPS designation two years earlier.
    Around that same time, as civil war in Liberia erupted for 
a second time in a decade, approximately 10,000 Liberian 
nationals were granted deferred enforced departure.
    Today, some 320,000 people from 10 nations reside legally 
in the United States with TPS and up to 4,000 Liberians have 
DED. More than half the TPS recipients from El Salvador, 
Honduras, and Haiti have been in the United States for at least 
20 years.
    Nearly 275,000 U.S. citizen children have been born to a 
parent or parents with TPS from these countries. Liberian DED 
holders have all been here since at least 2002 and have been 
building their lives and raising their families here for much 
longer than that.
    Now, as with DACA, the Trump administration has 
unceremoniously terminated the TPS designation for six 
countries and DED for Liberia. This brings uncertainty and fear 
into the lives of approximately 300,000 long-term residents and 
their U.S. citizen families.
    Several courts are now in the process of examining whether 
the administration acted lawfully in some of these 
terminations. In less than a month after nearly three decades 
of protection with TPS or DED, all protections for Liberians 
would come to an end.
    Today, we are going to examine the plight of these two 
groups but I will say this. This is not just about the trauma 
of the individuals who are protected. It is about trauma to our 
country.
    Why would we want a Rhodes Scholar to have to leave the 
U.S.? Why would we want a medical student who is going to 
provide medical care that we need to have to leave the U.S.? 
This isn't just about the individuals who are protected. This 
is about doing damage to our country. Why would we do that?
    And I will just say a final thing. You know, we have tried 
every which way to reform our immigration laws sensibly--top to 
bottom reform, piecemeal reform.
    I am of the view that if we say we can do nothing unless we 
do everything, 18 years from now we will still be spinning our 
wheels. We need to take steps to protect the Dreamers and the 
TPS-DED recipients.
    We need to do other things to reform our law. We should not 
be stymied by the inability to do everything. Let us not let 
the perfect be the enemy of the good. Let us make progress 
finally on this important issue that faces our country.
    And I yield back, Mr. Chairman.
    Chairman Nadler. I thank the gentlelady.
    I am now pleased to recognize the ranking member of the 
Immigration Subcommittee, the gentleman from Colorado, Mr. 
Buck, for his opening statement.
    Mr. Buck. Thank you, Mr. Chairman.
    Today's witnesses include DACA recipients who are high-
achieving individuals with no criminal record. They were 
brought to the U.S. when they were children. While this 
violated America's laws, we understand they did not choose to 
violate the law.
    When given a chance, they used DACA to get right with the 
law. But we must be realistic. Not everyone who applies for 
DACA is a Rhodes Scholar, not--nor will every recipient go to 
medical school or graduate from college.
    We are kidding ourselves if we think that all DACA 
recipients could even pass a background check. Last year, 
Republicans put forward a bill that balanced compassion for 
exemplary young immigrants with the need for robust screening 
and fraud prevention to deny status to criminals and gang 
members.
    The bill contained enforcement to end illegal immigration. 
That approach remains the only realistic path to enacting a 
DACA fix. So where were the Democrats? Nowhere.
    No Democrats voted for that DACA fix and that, sadly, is 
why we are having today's hearing. Today's witnesses are pawns 
in a tragic open border strategy being pushed by the Left.
    Democrats are employing a strategy to undermine America's 
sovereignty and stress our schools and social safety net to the 
breaking point with unmanageable levels of illegal immigration.
    Our witnesses are victims of that radical agenda. The 
American people are compassionate but they are frustrated. 
Americans know Congress's cycle of broken immigration promises.
    In 1986, Chuck Schumer, who served on this committee, 
promised that the '86 amnesty would reduce federal immigration 
to no more than 200,000 persons per year. It didn't take long 
to conclude that that was a preposterous prediction.
    In 1989, the New York Times wrote that the law, quote, 
``likely encouraged unlawful entry,'' end quote. No kidding. 
The Times projected annual illegal border crossings as high as 
2.5 million per year and quoted Leonel Castillo, the INS 
commissioner in the Carter administration, as saying Congress 
would have to deal with amnesty again soon.
    That prediction proved to be true. The '86 amnesty was 
followed by another temporary amnesty in 1994, two more failed 
amnesties in 1997 followed by another in 1998 and two in 2000, 
including on to extend the '86 amnesty.
    Every amnesty brings more illegal immigration and demands 
for another amnesty. President Obama's DACA, or the president's 
DACA and the unaccompanied minor legislation enacted into law a 
decade ago has incentivized a massive influx of children coming 
to our borders.
    If we are going to have a fix for the young adults before 
us today, it must be accompanied with border security and 
enforcement to ensure that the fix is the last amnesty Congress 
ever passes.
    But instead of following that path, I fear the majority 
will bring forward a blanket amnesty-only DACA bill or one that 
contains the illusion of border security and phantom interior 
enforcement. That would be horribly unfair to today's witnesses 
because that approach has little chance of becoming law.
    Why do I fear Democrats will take that approach? First, we 
recently had a hearing with Carla Provos, the chief of the 
Border Patrol. She testified--and she is in a position to 
know--that there was, quote, ``a humanitarian and immigration 
crisis,'' end quote, on the border.
    You can't make this up, but on the same day the majority 
voted to nullify the president's emergency declaration that 
sought to address the crisis. Second, the majority's omnibus 
spending bill reduced spending on ICE detention facilities and 
cut funding for fencing compared to prior bills.
    Third, members of the majority have called for the 
abolition of ICE. One member has even threatened Democrats who 
supported last week's motion to recommit, requiring ICE 
notification if an illegal alien tries to purchase a gun.
    I fear these witnesses are being held hostage by the 
majority, that they are being used as pawns to score political 
points while the majority intends to push a partisan bill that 
has little hope of becoming law.
    If the majority chooses to move forward with hard 
partisanship rather than a pragmatic bipartisan approach, Mr. 
Chairman, we might as well go ahead and schedule this same 
hearing again for two, five, and 10 years from now because we 
won't have a solution and we will be facing the same situation 
as we are facing today.
    I yield back.
    Chairman Nadler. I thank the gentleman for yielding.
    I will now introduce today's witnesses. Jin Park came to 
the United States at age seven from Korea and is a DACA 
recipient. He graduated from Harvard College with a degree in 
molecular and cellular biology and has been awarded the Rhodes 
Scholarship to attend the University of Oxford.
    Yazmin Irazoqui-Ruiz arrived in the United States from 
Mexico at age three and is also a DACA recipient. She earned 
her undergraduate degree from the University of New Mexico in 
biology and Spanish and is currently a student at the 
University of New Mexico School of Medicine.
    Yatta Kiazolu is a Liberian national DED holder who has 
been in the United States for 22 years. She has a Bachelor's 
degree in history and philosophy from Delaware State 
University, a Master's degree in history from UCLA, and is 
currently obtaining a Ph.D. in history from UCLA.
    Jose Palma serves as a national coordinator of the National 
TPS Alliance. He is a TPS recipient originally from El 
Salvador. He received an associate degree in paralegal studies 
from North Shore Community College and he currently attends the 
University of Massachusetts Boston where he is obtaining a 
labor studies certificate.
    Donald Graham is chairman of the board of Graham Holdings 
Company. He is a former owner and publisher of the Washington 
Post and he is the co-founder of TheDream.US, which provides 
educational scholarships to Dreamers and TPS recipients. Mr. 
Graham graduated from Harvard.
    Bishop Mario Dorsonville is an auxiliary bishop of the 
Archdiocese of Washington. He was born in Colombia and he is 
the incoming migration chairman of the U.S. Conference of 
Catholic Bishops.
    He received Bachelor's degrees in philosophy and sacred 
theology in the Major Seminary of the Archdiocese of Bogota, a 
licentiate in sacred theology from the Pontifica Universidad 
Javeriana de Bogota, if I pronounced it right, and a doctorate 
in ministry from the Catholic University of America.
    Hilario Yanez came to the United States from Mexico at the 
age of one and is a DACA recipient. He received a Bachelor of 
business administration and supply chain management and 
management information systems from the University of Houston.
    Andrew Arthur is a resident fellow in law and policy for 
the Center for Immigration Studies. Over the course of his 
career, he has been an attorney at the Department of Justice, 
Immigration and Naturalization Service, and on Capitol Hill 
before serving as an immigration judge in York, Pennsylvania. 
He received a Bachelor's degree from the University of Virginia 
and a JD from the George Washington University School of Law.
    We welcome all of our distinguished witnesses and thank 
them for participating in today's hearing. Now, if you would 
please rise I will begin by swearing you in.
    Raise your right hands, please. Do you swear or affirm 
under penalty of perjury that the testimony you are about to 
give is true and correct to the best of your knowledge, 
information, and belief, so help you God?
    [A chorus of ayes.]
    Chairman Nadler. Thank you. Let the record show the 
witnesses answered in the affirmative, thank you and please be 
seated.
    Please note that each of your written statements will be 
entered into the record in its entirety. Accordingly, I ask 
that you summarize your testimony in five minutes. To help you 
stay within that time, there is a timing light on your table.
    When the light switches from green to yellow you have one 
minute to conclude your testimony. When the light turns red it 
signals your five minutes have expired.
    Mr. Park, you may begin.

  TESTIMONIES OF JIN PARK, DACA RECIPIENT, HARVARD UNIVERSITY 
   UNDERGRADUATE STUDENT, RHODES SCHOLAR; YATTA KIAZOLU, DED 
   RECIPIENT, UCLA PHD CANDIDATE; YAZMIN IRAZOQUI-RUIZ, DACA 
   RECIPIENT, UNIVERSITY OF NEW MEXICO MEDICAL STUDENT; JOSE 
PALMA, TPS RECIPIENT, NATIONAL COORDINATOR OF THE NATIONAL TPS 
   ALLIANCE; DONALD E. GRAHAM, CHAIRMAN OF THE BOARD, GRAHAM 
   HOLDINGS COMPANY, CO-FOUNDER, THE.DREAM.US; BISHOP MARIO 
   DORSONVILLE, AUXILIARY BISHOP, ARCHDIOCESE OF WASHINGTON; 
HILARIO YANEZ, DACA RECIPIENT, UNIVERSITY OF HOUSTON GRADUATE; 
ANDREW R. ARTHUR, RESIDENT FELLOW IN LAW AND POLICY, CENTER FOR 
                      IMMIGRATION STUDIES

                     TESTIMONY OF JIN PARK

    Mr. Park. Chairman Nadler, Ranking Member Collins, and 
members of this committee, thank you for inviting me to testify 
before you today.
    My name is Jin Park. I am 23 years old and the son of two 
loving and hardworking parents--my father, a line cook at a 
restaurant, and my mother, a beauty salon worker.
    I am a recent graduate of Harvard University. I am also a 
New Yorker. I am a DACA recipient. After the Asian financial 
crisis in late 1990s, my parents made the wrenching decision to 
leave behind the only home they had ever known in search of a 
better life for our family.
    That is how, at seven years old, I ended up on a plane 
bound for Flushing, Queens. My first day of school went poorly, 
mainly because I spoke essentially no English. When my teacher 
directed a question to me, she might has well have been 
speaking gibberish.
    Scared, I grasped for the only English words I could 
remember and responded with, ``Home alone,'' which I had picked 
up--picked up from the movie on the plane. And, fortunately, my 
teacher quickly realized the problem and got me into ESL.
    After several months, I had learned enough English to join 
regular classes and quickly slipped into life of a normal New 
York City public school kid. I spent most of my time after 
school with friends playing pickup basketball at the courts in 
the neighborhood.
    When my dad learned that baseball was an all-American 
pastime, he started taking me out to play on the sidewalk in 
front of our apartment complex.
    He was a little fuzzy on the rules and his pitching left 
something to be desired. But he was determined that his son 
would not miss out on this American rite of passage.
    I was always aware on some level that I was different. But 
as a kid, I was not able to grasp such a weighty concept as 
citizenship. I would learn eventually. When I was about 15 I 
went to a hospital to sign up as a volunteer. The administrator 
I spoke with said she was sorry but they did not allow illegal 
aliens.
    Embarrassed and confused about how to respond, I just 
mumbled an apology, walked outside, and cried. The hurt of that 
experience stayed with me until one afternoon in the summer of 
2012 when President Obama stood in the Rose Garden and 
announced a new policy that would allow undocumented immigrants 
brought here as children to officially have a place in American 
society.
    I remember clearly the mixture of relief and growing 
excitement as I listened to the speech and realized he was 
talking about kids like me.
    Five years after that moment, the gnawing ever-present 
uncertainty that comes from being undocumented slowly faded 
away. In 2017, at the start of my senior year at Harvard, that 
uncertainty came rushing back as DACA's future was thrown into 
question. But I was determined to continue pursuing my goals 
and applied for a Rhodes Scholarship. When I became the first 
DACA recipient to win the Rhodes, I was overwhelmed with 
unspeakable gratitude to my parents, my community, and to my 
country, the United States of America.
    Right now, there is a major obstacle between me and the 
Rhodes Scholarship. When DACA was halted in 2017, the guidance 
that allowed DACA recipients to get advanced permission to 
leave the country to study, work, or visit elderly family 
members was also terminated.
    This means that if I leave the country to study at Oxford I 
will forfeit my DACA and there will be no guarantee that I can 
return home to the United States. That is the perpetual reality 
of being undocumented. No matter how hard I work or what I 
achieve, I will never know if I have a place in America, my 
home.
    I am supposed to leave for Oxford in October, roughly, 
seven months from now. But I feel caught in an impossible 
position. How can I leave knowing I might not be able to come 
back to my home, my family, my friends, and the life I have 
built here for the past 16 years?
    My proposed study includes field work in Flushing, where I 
grew up. How can I do that if I can't even get into the United 
States and how many others have found themselves at a similar 
crossroads faced with an impossibly difficult choice?
    We know some of their stories like Mayra Garibo, a DACA 
recipient studying at California State University, who was 
unable to visit her father in Mexico before he died, and we 
know of Angel Martinez, a DACA recipient diagnosed with 
terminal leukemia who had to choose being saying goodbye to his 
family in Mexico and receiving Hospice care in the U.S.
    Every day that DACA recipients are left in limbo it 
inflicts unnecessary pain, suffering, and hardship, and it will 
only get worse if Congress does not take action to provide 
permanent protection for DACA recipients.
    The scholarship offers me an extraordinary opportunity but 
it does not make me more extraordinary or deserving than other 
Dreamers. Like all dreamers, my family came to this country 
seeking a better life. My parents desperately wanted to give me 
opportunities they never had.
    Like all Dreamers, the United States is my home. For many 
of us, it is the only home we can really remember. I can only 
hope my testimony shows the need for quick action to permit 
dreamers to fulfill their potential and contribute to American 
society.
    Thank you again for the opportunity to testify today and I 
am happy to answer the committee's questions.
    [The statement of Mr. Park follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you very much.
    Ms. Kiazolu.

                   TESTIMONY OF YATTA KIAZOLU

    Ms. Kiazolu. Chairman Nadler, Ranking Member Collins, and 
members of the committee, thank you for this opportunity.
    My name is Yatta Kiazolu. I am 28 years old and I am a 
beneficiary of Deferred Enforced Departure, also known as DED. 
In addition, I am a Ph.D. candidate in the Department of 
History at UCLA with plans to graduate by fall 2018.
    After 22 years in the U.S., however, 25 days from now 
Liberian DED will end and my entire life will be interrupted. I 
have only visited Liberia once as a toddler and I have never 
lived in the country.
    I am here today to appeal to Congress to create a permanent 
solution on behalf of myself and the thousands of Liberians who 
have rebuilt their lives here in the United States.
    I was born in Botswana to Liberian national parents and 
arrived in the U.S. at six years old in 1997. My father worked 
as a professor at the University of Botswana for the United 
Nations while my mother was a stay-at-home parent and later 
worked as a teacher at a local school.
    We had no other family in Botswana. When my parents made an 
attempt to move back to Liberia after the first civil war, in 
fear of my safety my mother sent me to live in Georgia with my 
grandmother while they assessed the situation.
    Living it the States provided me security and stability I 
otherwise would not have known because the fragile political 
climate soon descended into a second civil war.
    My mother joined me soon after. In fact, one of my fondest 
memories at this age was being in a Little League in Decatur, 
Georgia, where my cousins and I made up almost the entire team.
    I have been a recipient of both TPS and DED. If DACA had 
not been rescinded it is possible that I would be a Dreamer as 
well. The protection of these relief programs allowed me to 
maintain a stable and health life despite living deadline to 
deadline.
    The ability to attend college and graduate from Delaware 
State University with honors helped me discover my passion for 
history and higher education. An undergrad, I was an active 
member of my campus and community, leading student 
organizations, joined the public service sorority, Delta Sigma 
Theta, and even completed internships at congressional local 
offices.
    DED made it possible for me to leave the U.S. in 2012 
through advanced parole for the first time since my arrival to 
travel to South Africa. I participated in the UC Office of the 
President HBCU Initiative. I was thrilled to be able to travel 
freely with my classmates for once.
    This program exposed me to graduate education and is the 
reason I decided to pursue my doctorate in history at UCLA. On 
campus, I have been a strong advocate of student support, led 
numerous diversity and inclusion initiatives, and worked as a 
teaching assistant for undergraduate courses.
    In my local community I work to support student access to 
higher education through tutoring and working as an adjunct 
instructor. Nothing I have accomplished thus far would be 
possible without the unwavering support of my family, who are 
here with me today.
    I am here because of the love and labor of my mother, 
grandmother, and aunties who, when I first arrived, were all 
working class black immigrant women. They worked jobs that 
required them to stand on their feet for sometimes over 10 
hours a day in order to protect me and offer me a space to 
imagine, dream, and explore my world as a child should.
    Their resilience, hope, and lessons about good will inspire 
my graduate research, about histories of black women's 
political activism. My grandmother used to say when you do good 
you don't do it for yourself. You do it for God.
    And with that philosophy as my personal mantra through the 
majority--though the majority of my family are now permanent 
residents and U.S. citizens, I am here for all the working 
class immigrants on DED, TPS, and are also DREAM eligible.
    I am here for all the young people like myself who have 
anxiety about their futures. If Congress allows DED to end in 
25 days, I do not know what will happen to me. My mother and 
stepfather lose sleep every night worrying about me.
    I want to graduate this year and begin my career in higher 
education. I am incredibly passionate about teaching history, 
public history programming, and student mentorship. Through 
various roles in the classroom over the last five years, I have 
been invested in the academic personal achievement of over 200 
students, especially those who are historically under 
represented.
    As a product of dedicated advocates, I want to be able to 
give back, especially to students who have limited access to 
higher education.
    To this end, it is my greatest appeal that Congress create 
a permanent path to citizenship for DED and similar programs 
like DACA TPS.
    Thank you for your time.
    [The statement of Ms. Kiazolu follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you.
    Ms. Irazoqui-Ruiz--I got that right--Ruiz.

               TESTIMONY OF YAZMIN IRAZOQUI-RUIZ

    Ms. Irazoqui-Ruiz. Good morning Chairman Nadler, Ranking 
Member Collins, and distinguished members of the Judiciary 
Committee.
    My name is Yazmin Irazoqui-Ruiz. I am a third-year medical 
student at the University of New Mexico School of Medicine. 
This past Friday I completed my surgery clerkship. I hope to 
provide women's health and specialize in obstetrics and 
gynecology to do what I can to ensure all women and girls get 
the excellent health care they deserve.
    It is my honor to be here today and to share my story and 
the stories of young people who benefit from Deferred Action 
for Childhood Arrivals and what it is like to live in fear of 
ICE and CBP.
    I want to thank you for holding this necessary hearing. I 
moved to the U.S. with my mom and twin sister when my sister 
and I were three years old and, like most immigrant youth, I 
belonged to a mixed status family.
    My younger brothers are U.S. citizens, I am a DACA 
recipient, and my twin sister is a legal permanent resident. We 
moved to Phoenix, Arizona, where my mother built a loving home 
for our family. In my eyes, my mother and all immigrant parents 
have made great sacrifices and taken risks so that their 
children can thrive.
    They are the original Dreamers. When I was 16 years old, my 
world was shaken. My mother suffered a stroke and we feared 
that she wouldn't make it. I am happy to say that my mother 
recovered and is at home right now watching me testify before 
you. Te quiero, Mama.
    It was during this time that my twin sister and I learned 
of our immigration status. In the blink of an eye our biggest 
concern went from student government and obtaining good grades 
to living with the burden of wondering whether our mother would 
survive and whether ICE agents or Arizona Sheriff Joe Arpaio, 
would tear our family apart.
    During this time my mother and I approached an attorney for 
legal advice and I will never forget his words: In this country 
you are no one. In this country you do not exist. You will 
never be able to attend college.
    I remember my throat tightening as I choked back tears 
while trying to process his words. My young mind could not wrap 
itself around them. I had done everything right. My grades, my 
extracurricular achievements, all of the hard work, my mother's 
sacrifices, didn't matter. We didn't know how we would survive 
but we dug deep. Immigrant families know how to do that. We 
made the decision to move to Albuquerque, New Mexico.
    This was before DACA, and while we knew that ICE still 
posed a threat, we went about making friends at our new school 
and obtaining good grades. College applications were tricky.
    Despite receiving a full tuition scholarship, New Mexico 
State University was out of the question because of its 
proximity to the border and other forms of financial aid were 
difficult to come by.
    I went on to earn a Bachelor of science at the University 
of New Mexico, and because immigrant youth fought to be 
protected, the DACA program was created in 2012. After that, 
life changed for me and many immigrant youth.
    I had access to different jobs. I could now move freely in 
the U.S. I could finally breathe a sigh of relief. Unlike DREAM 
Act legislation of years past, academic achievement was not a 
qualification for DACA.
    This is important, because even though I sit here today as 
a medical student and as someone who is proud of her 
accomplishments, I come from a community of resilient and 
strong mechanics, construction workers, teachers, home care 
workers, cosmetologists, moms, dads, and people from all walks 
of life who call this nation their home.
    So when Donald Trump killed DACA, my mental health was 
tenuous. Here I am, once again, having worked hard in medical 
school and now facing the reality of my future career as a 
physician being pulled out from under me.
    And I know that I am not alone. While I am on my way to 
becoming a physician, I know that others with DACA, TPS, and 
DED protections have started careers, bought homes, started 
families, and here we are facing that being taken away.
    I know what my life without DACA would be because I see it 
every day. With the New Mexico Dream Team and United We Dream, 
young people and allies brought counseling to the community 
because children were terrified, fearful that their parents 
would be taken away.
    I visited the Cibola ICE Detention Center, which is run by 
the Core Civic Corporation to help uncover the mistreatment of 
trans women and queer men who reported being abused by guards.
    Ladies and gentlemen, the tents and cells where immigrant 
children are being held in detention along the border bring 
back memories of Arpaio's Arizona tent cities and it shakes me 
to my core.
    I know that some say that young people with DACA should be 
protected for a price. They call for more immigration 
enforcement, which would put my mother in danger in exchange 
for my safety.
    Mr. Chairman and members of the committee, I come before 
you today as the product of my community. So protecting me in 
exchange for increased danger for my community is not a 
protection at all.
    I come to ask that you pass legislation to provide for 
permanent protection and a pathway to citizenship and I ask 
that you not use my plight as a DACA recipient who could become 
vulnerable to ICE and CBP as leverage to increase the power for 
those enforcement agencies.
    Thank you.
    [The statement of Ms. Irazoqui-Ruiz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you.
    Mr. Palma.

                    TESTIMONY OF JOSE PALMA

    Mr. Palma. Thank you, Chairman Nadler, Ranking Member 
Collins, and distinguished members of the committee.
    My name is Jose Palma. I am a father of four U.S. citizen 
children. I am a loving husband to my wife and for 18 years a 
proud resident of Lynn, Massachusetts, and I am also a TPS 
holder.
    I also speak to you today as a husband, a father, a 
coordinator for the beautiful alliance of TPS holders, the 
National TPS Alliance. I hope to give their experiences the 
justice they deserve.
    I ask that you look at me and the TPS community beyond the 
politics, the sound bites, and rhetoric with more than half a 
million TPS holders and their families on the verge of being 
separated. We ask that you look at humanity and our stories.
    Our story is no different from that of millions of 
Americans who have established roots, who are the strong 
foundations in their communities, and fight to make sure their 
families are safe.
    I was first granted TPS in 2001. I was 25 years old. We 
were given 18 months to work, to get our affairs in order, and 
any planning beyond that was unthinkable. However, after a year 
passed, I began working.
    I obtained an associate degree of paralegal studies from 
North Shore Community College. I was awarded a distinguished 
alumni award. I married the love of my life, who also has TPS, 
and we had our son, Kevin, who is now getting ready to apply to 
colleges, hoping to become a cardiologist.
    Like other fathers, I am helping him fill out the 
applications and hope to continue supporting him throughout his 
career. Angie, my 13-year-old daughter, is part of every club 
possible at school and dreams about being a physical therapist.
    Our three-year-old Ezekiel is about to go to pre-K and we 
have a seven-month-old baby girl, Valentina, whose greatest 
gift to my life is a beautiful smile.
    For the last 18 years, our life has been measured in 18-
month periods, background checks, application fees, visits to 
DHS offices. We have always done everything we have been asked 
to do to be protected from deportation and to continue working 
and supporting our family.
    But after so many years we have simply begun to live our 
lives and to build our homes where we work. The U.S. is our 
home now. I am not unique or special. This is the experience of 
any TPS family in this country.
    Many of you are fathers and mothers. The story of a TPS 
holder are the stories of family, home, and community. But 
since the TPS program was terminated our life has been on hold.
    I now only have nine months left before I am separated from 
my children. Kevin will be in his first semester at college. 
Like me, hundreds of thousands of TPS holders and their 
families are confronted this terrible reality. Being on the 
verge of losing our stability and, like me, many have chosen to 
lift up their voices and share the TPS experience.
    Do you know who is the TPS community? When New Orleans was 
flooded after Hurricane Katrina, TPS holders were among the 
workers that helped rebuilt the city. A business owner in 
Boston who employed dozens of Americans with well-paid jobs and 
runs a multi-million-dollar construction business hold TPS from 
El Salvador.
    In Dallas, Texas, a TPS holder that is an auto mechanic has 
a son who recently joined the U.S. Marines, willing to risk his 
life at the same time his parents are at risk of losing their 
immigration status.
    The most important, we are parents trying to stop a 
humanitarian crisis of family separation. There is nothing 
temporary about our family's life. We have been given some of 
our best years to this country. Our lives are proof of the 
promise of resilience and well-grounded families.
    I ask that you be proud to stand with us and help us on the 
path toward permanent residence for hundreds of thousands of 
TPS families who call this country home.
    Thank you.
    [The statement of Mr. Palma follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you.
    Mr. Graham.

                   TESTIMONY OF DONALD GRAHAM

    Mr. Graham. Mr. Chairman, Ranking Member Collins, members 
of the committee, my name is Donald Graham. I am chairman of 
Graham Holdings and I am co-founder of a scholarship program 
called TheDream.US.
    Along with my co-founders, Henry Munoz of San Antonio and 
Secretary Carlos Gutierrez of Miami, I helped announce the 
start of our program five years ago. We now have 3,400 Dreamer 
students from 35 states in college. Another 380 have already 
graduated.
    Since Mr. Munoz is a well-known Democrat and Secretary 
Gutierrez is a former member of the Cabinet of President George 
W. Bush, we started bipartisan. When we announced our program, 
a statement backing us--backing the nature of our program was 
signed by many Democrats and also by former Governor Jeb Bush, 
Grover Norquist, Rupert Murdoch, and a figure from very ancient 
history named Newt Gingrich.
    We three co-founders have met many students who seem to us 
perfectly qualified for college but were effectively barred 
from attending because they were Dreamers. They had gone--they 
had come to this country as young children, grown up and gone 
to school here, many believing that they were U.S. citizens 
like their classmates.
    But as seniors, watching their classmates apply to college, 
they learned, of course, that they were not eligible for Pell 
Grants or for a dollar of loans from the federal government or 
anyone or, in most cases, state grants as well.
    As a practical matter, they couldn't go to college and in 
some cases they were told that by their own college counselors. 
In some states, they had to pay out-of-state tuition--
typically, three times in-state tuition--and in a handful of 
states they were barred for all at some state colleges even if 
they paid.
    Mr. Chairman, like every member of this committee, I love 
this country. Like many of you, I served in the armed forces of 
the United States, although in my case it was a hell of a long 
time ago.
    Also like many of you, but much more briefly, I had time in 
law enforcement. I was a patrolman in the Metropolitan Police 
Department at Washington for a year and a half. I am as proud 
of this country as I ever was.
    But I fear that while we wait for a broader reform of our 
nation's immigration laws, which several members have already 
commented on, we are unintentionally being cruel to generations 
of young undocumented people. Among our 3,400 students with 
DACA and TPS, the average student came to the United States at 
the age of four. We have a good data person.
    Once they are here, there is no line they can get in, no 
form they can fill out, no fee they can pay, no service they 
can perform to change their status. That is up to the 
remarkable people of this Congress and this committee.
    Our scholarships are small. Our scholarship to a four-year 
college is $8,250 a year. Most students carry a full time 
course load but they also work. The supply of outstanding 
Dreamer students is enormous.
    The number of our scholars is pitifully small compared to 
the 700,000 with DACA. Only the government can afford these 
students a chance and that chance would benefit this country 
hugely.
    Our students are performing miracles. We are a five-year-
old program and our students are as low income as any in the 
United States. Eighty-eight percent of all who ever enrolled 
are still enrolled or have graduated.
    Mr. Chairman, what characterizes the Dreamers I know best 
is their almost impossible motivation. They are told to their 
face, you have no chance to go to college. It only seems to 
motivate them more.
    In Chicago earlier this year I met a Dreamer whose older 
sister had pooled earnings with her so that the younger sister 
could go to community college. The earnings weren't much. They 
could only pay for one course at a time. She had graduated from 
her two-year college in 11 years. Now she has got our 
scholarship and is working toward a BA.
    This magnificent bill would offer the Dreamers equal access 
to higher education. But I am an old man from Washington and I 
fear that this bill may not have a chance to pass both Houses 
and be signed by the president.
    I beg the members of both parties to work together as you 
so often do. Please change the status of Dreamers and TPS 
holders and please do it this year. They are not exaggerating 
when they describe the tension baked into their lives, not by 
the fault of any member of this committee but by the situation 
that they are in.
    Budget hawks among you will be pleased to know that this 
bill would--that giving access to the Dreamers would make money 
for the United States. The Cato Institute estimates that the 
700 DACA recipients alone would pay $92 billion in federal 
taxes in the next 10 years.
    Chairman Nadler. Excuse me. You mean 700,000, I assume?
    Mr. Graham. Seven hundred thousand DACA recipients. Thank 
you, Mr. Chairman.
    Mr. Chairman, I am awed, and I am not joking, to appear 
before this committee. I have never testified before a 
committee of Congress before. But this committee is special.
    One great thing about this country is that we live by the 
rule of law and most federal law originated here, the work of 
you and your predecessors.
    In my lifetime, the civil rights laws, the Voting Rights 
Act, and so much more were written here, the work of 
Republicans as well as Democrats. And so in the last Congress 
did the First Step Act, again, co-sponsored by members on both 
sides of the chairman.
    I would beg the members of this committee to work together 
with your colleagues in the House and the other house. Please 
provide as much relief as you can to as many Dreamers as you 
can.
    If you can do that, it will be an enormous benefit to 
countless worthy young people and to the country that they and 
we love so much.
    Thank you, Mr. Chairman.
    [The statement of Mr. Graham follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you.
    Mr. Dorsonville.

                 TESTIMONY OF MARIO DORSONVILLE

    Bishop Dorsonville. Thank you.
    Chairman Nadler, Ranking Member Collins, and House 
Judiciary Committee members, thank you for giving me the 
opportunity to speak with you today about Dreamers and 
Temporary Protected Status holders and their importance to the 
Catholic Church.
    My name is Mario Dorsonville. I am the auxiliary bishop of 
Washington and the upcoming chairman of the U.S. Conference of 
Catholic Bishops Committee on Immigration.
    I come here to offer my perspective as a naturalized 
immigrant to this great country, a bishop of the Catholic 
Church, and a community leader. I am personally an example of 
the possibility of the American dream.
    Originally from Colombia, I have had the opportunity to 
live here in the United States for close to 30 years, 
naturalize, and achieve my calling to work as a bishop with the 
Catholic Church. For this, I am really blessed.
    I have been a priest for 33 years and then for the last--
and for 10 years I have had the opportunity to work with 
Catholic Charities, the Spanish Catholic Center, here in the 
Archdiocese of Washington.
    With this experience I have encountered many immigrants who 
have come to United States and thrived. I have met many 
individuals including DACA and TPS holders who are building 
lives here so that they can serve others, experience I have 
encountered in the daily work manifested in such a great way 
the Gospel we preach every day in our encounter with the 
people.
    These young people are around in the life of the 
Archdiocese in more than 140 parishes and I watch them thrive 
and succeed and also listen to their dreams, and why not? I 
listen to their fears.
    I would like to share with you the experience of Margarita, 
who is a DACA youth and volunteer with the Archdiocese. 
Margarita came to the United States when she was about 10 years 
old with her parents and young brother. Margarita is a student 
at Trinity University and she dreams of attending graduate 
school.
    Margarita is set to succeed here in the United States, her 
home. If we pull her out of school and return to her--her to a 
country where she knows no one and does not understand the 
culture, we will be ripping away her bright future.
    Providing Dreamers like Margarita a path to citizenship is 
not a policy issue. It is a moral and human dignity issue.
    Now I also want to take a moment to speak about another 
vitally important group to our country and to our church--TPS 
holders and their families. TPS holders in the United States 
have called our country home for years, some for more than 20 
years and are now facing uncertain futures in light of recent 
termination decisions.
    TPS holders have integrated into our country and have over 
273,000 U.S. citizen children. That is 273,000 children who are 
facing family separation if Congress does not act. While I was 
in the Washington, D.C. area, this is a especially 
heartbreaking situation as we are home to the second largest 
number of Salvadorian TPS holders in the country.
    Over 40,000 in Maryland and Virginia, we see them in many 
activities and especially in many works. The Archdiocese has in 
fact been contacted by numerous local businesses that are 
concerned about their TPS workers and their ability to replace 
these individuals.
    They are those who serve our restaurants, our hotels, those 
who go into the construction companies. I really think that 
this is a real nightmare for these companies to be able to 
replace grateful people who have been working there for years.
    In April of this past year, we welcomed the Salvadorian 
bishops to Washington, D.C. to share the consequences of TPS 
termination for the country and, more importantly, met those in 
local communities to whom they are shepherds.
    We held many encounters, three Masses in local areas, as 
well as private community dialogues during which the TPS 
community spoke about their concerns and anxiety over their 
family futures.
    I urge that this encounter that make us go away from the 
rhetoric but pull us in a real human encounter with those who 
have fear and those who really are going through very difficult 
times.
    It is essential for us to look at the TPS holders as a part 
of our communities and as a part of our--of our nation and we 
must find them a solution and a path to citizenship.
    [The statement of Bishop Dorsonville follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. The witness' time has expired.
    Mr. Yanez.

                   TESTIMONY OF HILARIO YANEZ

    Mr. Yanez. Chairman Nadler, Ranking Member Collins, and 
members of the committee, thank you for giving me the 
opportunity to appear before you today. My name is Hilario 
Yanez, and I am a DACA recipient. I am here today to share my 
story, as well as to emphasize the importance of border 
security. I am not a policymaker or an immigration expert. I am 
just someone who lived in this limbo for as long as I can 
remember.
    Chairman Nadler. Mr. Yanez, we will be a little lenient. 
Could you talk a little more slowly, please?
    Mr. Yanez. Yes, sir.
    Chairman Nadler. Thank you.
    Mr. Yanez. Sorry. Trying to get my thoughts across.
    It is my sincere hope that by sharing my life story today, 
I add a unique perspective to this discussion maybe helpful to 
you all as you work towards finally resolving the critical 
issues of border security and a permanent solution for 
Dreamers.
    I believe keeping America safe is essential. For that 
reason, I support border security. I also support a solution 
for Dreamers. Congress must work across party lines to do both. 
This directly affects my life and that of all my fellow 
Americans, including the millions of other Americans who are 
citizens in every way but one. Let us unite behind border 
security and a permanent solution for Dreamers.
    With that being said, I was born in Tampico, Tamaulipas, 
Mexico, and at the age of 1 my mom brought me to the United 
States to give me a better life. I did not have a choice in the 
matter. At the age of 3 my family became homeless and lived in 
a shelter called Star of Hope in Houston, downtown.
    Despite being homeless, growing up in a rough neighborhood, 
and not having my father in my life, I was determined to make 
my family, community, and my country proud by taking full 
advantage of every opportunity I could find. But because of my 
immigration status, there was not much hope. My biggest fear 
was that if I did something wrong, anything, I would never see 
my mother again. I never told anyone of my situation because I 
feared I would be seen as weak or a lesser person.
    Despite the circumstances I was dealt, I believe this is 
the greatest country on earth, the one where hard work is 
rewarded, the one where opportunity and hard work leads to 
success. All I needed was an opportunity.
    I graduated from high school in 2011, and ironically DACA 
was implemented in 2012. I will say this: I am always going to 
be grateful for anyone that gives me an opportunity, no matter 
what. It does not matter if you are Democrat, Republican, 
white, black, yellow, green or blue. Thank you, former 
President Obama. At the same time, I believe what former 
President Obama did was the right thing to do, but it was the 
wrong way to do it, which is why I believe DACA is 
unconstitutional, and President Trump has every right to get 
rid of it. The best way then and today is action by Congress.
    After going through extensive background checks and 
biometrics and paying a $500 application fee, I was able to 
obtain a Social Security card and a two-year work permit. I 
then applied for a driver's license. That is all I needed. This 
was my moment, the opportunity I had been waiting for. This was 
my shot to live the American Dream, and I made sure I was going 
to take it.
    As a result, I was able to attend a Tier 1 university, the 
University of Houston, main campus--go Cougs. I went on to 
intern with four different Fortune 500 companies. I went from 
making $7.25 at a small grocery store to making almost $30 an 
hour. This new income meant I paid more in taxes. That is a 
separate issue that we can talk about later. I was able to 
purchase my first car, pay my way through college, and support 
my family at the same time. By the grace of God, I was able to 
graduate with two Bachelor's degrees, and I now stand in front 
of you as a first-generation college graduate.
    I am also a leader in my community, and I tithe every 
Sunday to my church. Through my hard-earned money, I make sure 
to save and invest frequently in the stock market. As an 
investor and consumer to many companies on the stock market, I 
hope to stimulate and provide millions of jobs across this 
country.
    Because of DACA, I was able to not only dream the American 
Dream, I am living it and I am breathing the American Dream. 
All I needed was just one shot.
    With that being said, this dream could soon end. I do not 
know what my life looks like long term. My permit expires a 
year from now, and I do not know if I will be able to work 
again or possibly live in the only country I call home. This 
not only affects me. It affects my family, my employer, my 
community, my church, schools, jobs, and businesses across this 
country.
    The reality is your kids and I are no different. We all 
pledge allegiance to our beautiful American flag. We all get 
chills down our spines when we sing the National Anthem. We 
watch the same shows. I happen to watch ``The Office.'' We are 
educated in the same school systems from an early age, and we 
root for the same sports teams. Go Houston Rockets.
    I could easily be your son, and all of you in this room 
could be my mother and my father, my brother or my sister.
    I did not choose where I was born. I did not choose to come 
to the United States, but America is my home. This is the only 
place on earth where a kid like me can go from living in a 
homeless shelter to working at a Fortune 500 company.
    I love this country. I will be willing to lay my life to 
protect our freedom. It would be an honor for me to serve in 
our military and give back to our country.
    Finally, the toughest policy issues call for honest, clear, 
and bold solutions. DACA is an American issue, not a Democrat 
or a Republican issue. If we cannot solve that soon, there will 
be a ripple effect across this country. My life and the lives 
of hundreds of thousands of other people just like me hang in 
the balance. Our lives should not be decided by executive 
actions or court decisions. I am asking both parties of 
Congress to act now. I am not done with my American Dream. I am 
only getting started. And I urge both parties of Congress to 
give me the opportunity to continue to thrive in the land of 
opportunity.
    I will end with this, Mr. Chairman, Ranking Member Collins, 
members of the committee. I challenge you and your colleagues 
in the House and Senate to put your political views aside and 
work with each other on behalf of the American people. The 
House of Representatives will vote soon on Dreamer protection, 
which is a good starting point. I hope that each of you support 
this effort. But a vote that goes nowhere is not enough.
    We must also not forget the importance of border security 
reform and ensure that this issue does not come up again 20 
years from now. In order to have immigration reform, we must 
have immigration control as part of the discussion. I hope that 
both sides in this debate, Republicans and Democrats, show 
commitment to getting things done.
    Lastly, for decades Congress has tried and failed to 
deliver broad immigration reform. This situation cannot stand. 
Now is the time for action. The key is to work on solutions 
that most of you can agree on rather than trying to solve 
everything at once and risk dividing us all.
    Let us unite behind a permanent solution for DACA and 
border security reform. It is time to bring certainty, 
stability, and safety, once and for all, for all the American 
people and to the Dreamers.
    Thank you.
    [The statement of Mr. Yanez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you.
    Mr. Arthur.

                 TESTIMONY OF ANDREW R. ARTHUR

    Mr. Arthur. Mr. Chairman, Ranking Member Collins, and 
members of the committee, thank you for inviting me today.
    Ten countries are currently designated for Temporary 
Protected Status, or TPS. In total, some 437,000 aliens have 
TPS. The majority, 262,526, are from El Salvador.
    TPS has been available to those countries for several 
years; in cases, decades. It is temporary in name only, and the 
law must be amended to ensure that it is the extraordinary 
protection Congress intended almost three decades ago.
    The Trump Administration has announced plans to terminate 
the designations of six of those countries. Because of a 
District Court order, however, the termination of the 
designation of four--Nicaragua, El Salvador, Haiti, and Sudan--
has been enjoined indefinitely, leaving those TPS recipients in 
limbo.
    On June 15th, 2012, then Secretary of Homeland Security 
Janet Napolitano decreed that certain illegal aliens who came 
to the United States under the age of 16 and who met specific 
guidelines could request consideration for Deferred Action for 
Childhood Arrivals, or DACA, for a two-year period, subject to 
renewal. Roughly 699,350 aliens have that status.
    The eligibility standards for DACA are more lenient than 
for other aliens seeking immigration benefits. For example, 
certain criminal convictions would be disqualifying for green 
card or student visa applicants but are explicitly allowed for 
DACA applicants. USCIS has reported that almost 8 percent of 
DACA requesters, nearly 16,000 individuals, had criminal 
records. Some 199 of them had 10 or more arrests, and 51 of 
them actually received DACA.
    In September 2017, DHS rescinded DACA effective March 5th, 
2018. That rescission has subsequently been enjoined by various 
District Court judges, again leaving those recipients in limbo.
    Legislative proposals were introduced in the last Congress 
to grant legal status to those DACA recipients, as well as 
others similarly situated. In March 2018, the White House 
proposed legalizing 1.8 million DACA applicants and others 
eligible for DACA, but importantly, together with border 
security fixes, a limit on chain migration, and an end to the 
diversity visa program, to ameliorate many of the effects of 
such a large-scale amnesty.
    One of these effects would be a huge bill to taxpayers for 
the welfare programs and other new costs identified by the non-
partisan Congressional Budget Office, to the tune of $26 
billion. The President's proposals did not become law.
    Any amnesty has two significant downstream effects. First, 
it increases the incentives for others to enter illegally. And 
second, due to chain migration, it arithmetically increases the 
number of foreign nationals eligible to enter the United States 
legally.
    The President's proposals could have closed loopholes that 
are exploited by smugglers and migrants at the border, 
including: one, our flawed credible fear system; two, the 
Flores settlement agreement under which even accompanied alien 
minors must be released from DHS custody within 20 days; and 
TVPRA, which treats alien minors from non-contiguous countries 
differently than nationals of Mexico and Canada.
    They would have beefed up border security, expanded 
infrastructure along the border, and increased the number of 
immigration judges, my former colleagues, who are currently 
facing a crushing backlog of more than 2,000 cases per judge.
    They would have assured the quick removal of removable 
aliens, thereby limiting incentives for foreign nationals to 
seek illegal entry into the United States. Any amnesty proposal 
must provide for the implementation of these enforcement 
elements before the amnesty is awarded. We saw in 1986 that 
when the amnesty precedes the enforcement, the enforcement 
never occurs.
    Any amnesty proposal must also address the issue of fraud, 
which was rife in the last major amnesty in 1986. No amnesty 
proposal should include a confidentiality provision which cuts 
off information sharing between agencies in a way that only 
serves to protect ineligible and removable aliens and which 
makes the already difficult job of ICE attorneys even harder. 
If you want to see the difficulties that come from a lack of 
information sharing, one need only look at the 9/11 Commission 
report.
    An amnesty proposal must also be narrowly tailored to 
ensure that it serves the national interests of the United 
States. Only truly innocent, deserving aliens who have known no 
other country should be eligible for such extraordinary relief. 
Notably, such amnesty must be tailored to mitigate the effects 
on the most disadvantaged Americans, both U.S. citizen and 
lawful aliens, who have not had the benefits of solid education 
and work opportunities, most importantly inner-city youth, as 
identified by a former member of this committee, Representative 
Barbara Jordan.
    Any amnesty proposal must also be narrowly tailored to 
ensure that USCIS has the capacity to fully vet all applicants 
for that benefit without adversely affecting its ability to 
adjudicate applications filed by those who have obeyed the law.
    Our current system allowing naturalized immigrants to 
sponsor family members for green cards is obsolete. To minimize 
the long-term effects of an amnesty, such immigration should be 
ended.
    Finally, to that end, the diversity visa lottery, by which 
aliens with no ties to the United States and limited education 
and skills can obtain green cards through sheer luck, should 
also be ended.
    I look forward to your questions.
    Thank you, Mr. Chairman.
    [The statement of Mr. Arthur follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. Thank you.
    Before I begin, I ask unanimous consent to insert into the 
record a statement from Senator Durbin, the long-term Senate 
sponsor of the Dream Act, and a statement from the New York 
Immigration Coalition.
    Without objection, these two documents will be entered into 
the record.
    [The information follows:]

      

                     Chairman Nadler For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. We will now proceed under the 5-minute 
rule with questions. I will begin by recognizing myself for 5 
minutes.
    Bishop Dorsonville, the most often repeated commandment in 
the Bible, repeated 35 or 40 times, is some variation of the 
statement: ``Thou shalt not oppress the stranger, for you know 
the heart of the stranger, for you were strangers in the land 
of Egypt.''
    Now, aside from the question of whether people who were 
brought to this country at 1 or 2 years old, or 4 years old and 
are now adults are still strangers, for those people in 
politics or out who take their moral guidance from the Bible, 
what guidance on this question does this give us?
    Bishop Dorsonville. Mr. Chairman, I really think that 
everyone might be facing that kind of being a stranger when 
they have to leave for some different reasons their home. When 
they come here, and it is my own experience, it is so wonderful 
to find the American people ready to recognize you as a human 
person with possibilities to relate to others and to bring your 
own culture, but also to accept other cultures. It is an 
encounter to make us reveal the sense of human identity and 
recognizing that before God's eyes, there are no strangers. If 
we really are going to try to find out for all these people who 
are in the most difficult sense of poverty that a human person 
has, which is to be invisible and voiceless, I really think 
that we are just moving to a point to bring light to a very 
dark situation.
    That is what Catholic Charities, the Spanish Catholic 
Center, and many of our agencies do. We embrace the people. We 
find the people to find their story, their pain, their 
suffering. Even though we are not going to change the problems, 
we are saying let us accompany you, let us get to know you, and 
let us find a way not to call you a stranger but to call you my 
brother and my sister, the one who might be able to allow us to 
share their journey.
    I really think that this is an instance of humanity. 
Restoring humanity is one of the most important points of the 
law.
    Chairman Nadler. Thank you.
    Mr. Park, thank you again for your testimony today. I was 
struck by one line in your testimony in your efforts to get the 
Rhodes Trust to rethink what it means to belong to a country so 
that DACA recipients could qualify. In many ways, I think the 
last two or three years have been to one extent a conversation 
about who ``belongs'' here. And while we have seen a rise in 
hate groups and ugly rhetoric, we have also seen increasing 
recognition of the value of immigrants in our society.
    Briefly, as a Dreamer and DACA recipient, how do you think 
about the concept of belonging?
    Mr. Park. Mr. Chairman, thank you for your question.
    You know, when I think about why this country is my home, 
it does not have anything to do with what I have achieved or 
that I am a Rhodes Scholar. I think about the smells, the 
flavors, and the memories that I have in Flushing, my home. I 
think about waiting in one of my mom's beauty salons right 
after school until she gets home from work. I think about the 
fact that my bodega knows exactly how I like my bacon, egg, and 
cheese.
    So these facts about my life are a product of the fact that 
I have deep, deep connections to this country and this is my 
home. I think, independent of my education or independent of 
the things that I have achieved, those connections by virtue of 
the fact that I have been constituted in this place that I call 
home I think is what belonging means to me.
    Chairman Nadler. Thank you.
    Mr. Palma, after nearly two decades of building a life in 
Massachusetts, how do you talk to your U.S. citizen children 
about the situation you are in? How do you discuss with your 
children the possibility of losing legal status? How are other 
TPS holders dealing with this? Is this a shared feeling of 
anxiety among TPS holders? How do you tell your children about 
the situation?
    Mr. Palma. Thank you, Mr. Chair.
    This is a very difficult moment that we are facing. At the 
beginning, when I learned that we were at risk of losing TPS, I 
said to my kids don't worry, let me deal with it, as parents 
will do. Focus on the school. Continue doing your sports. 
Continue participating in your classes, and continue doing what 
I hope you will do, preparing yourself for the future.
    But the reality is that eventually, through the news or 
through the reality that we have to tell the kids, my son is 18 
years old, so I cannot really hide from reality. So we have to 
have that conversation about what is going to happen. But I 
think also as a coordinator of the National TPS Alliance, I get 
motivated when I see other parents, as I said in my testimony, 
instead of giving up, getting organized and lifting our voices 
and sharing our stories. We believe in American values, and we 
feel that they will be supportive or look for opportunity to 
provide permanent residency to people with TPS.
    So now we talk to our kids. They are actually helping in 
the way they can, through their knowledge that they have 
achieved in the schools or in different ways through the things 
that they have learned.
    So this is a community issue, this is a family issue, and 
that is why I feel hopeful that working together we will find a 
solution and provide permanent residency to people with TPS. I 
still continue my son to achieve his dream of becoming a 
doctor, the same thing as every TPS recipient, continue 
motivating our kids to be and do what they hope to be in the 
future.
    Chairman Nadler. Thank you very much.
    I now recognize the ranking member, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    I appreciate the witnesses. I think this is something where 
we can find common ground.
    One I disagree with, and it has been brought up a couple of 
times, is that you have to have a comprehensive fix. Myself 
included is not looking for a comprehensive fix. We know that 
is beyond us at this point. But frankly, the Dream Act is also 
beyond us, as well. So let's get honest with what we are 
dealing with here and find a solution that may be more narrowly 
tailored but finds the way that we can fix this. I think that 
is something to look at.
    We talk about the unfairness, the perceived unfairness of 
this right now. It was also very unfair for the previous 
administration to put forward a plan that they knew would not 
work. That was probably, again, one of the most cruel aspects 
of this whole thing, to say this is a process. It does not 
work. It does need to come back to Congress, and I think this 
is where we need to be a part of that.
    Some of that cruelty was coming from my Democratic 
colleagues that I listened to last Congress when we had these 
similar hearings. Mr. Gutierrez was one in particular who was 
impassioned, because it just did not work. Why would you force 
people to come out and admit their status in a situation 
knowing there was not protection in the long term? That was a 
discussion we were having.
    But I do believe, and I think now that I am sitting on the 
Immigration Subcommittee, there are ways that we can find on 
this. My hope is for myself, who knows my background, has had 
bipartisan success. We do find this. But there has to be both 
here. We cannot just simply say because the stories are very 
compelling--there is an old adage in law that bad facts make 
bad law, okay? Sometimes the facts are just bad and they need 
to be fixed. But we also have to fix them properly, otherwise 
they keep coming back.
    Mr. Yanez, you made a statement in your opening statement 
that I think is really interesting here. You are supportive of 
the Dream Act, and you are supportive of President Obama and 
giving a chance. I love that attitude. I think the interesting 
thing, though, is you made a statement--and I want you to 
elaborate on this, if you could--a vote that goes nowhere is 
not enough. Explain what you meant by that.
    Mr. Yanez. What I meant by that is that we are in a divided 
government, and we need both sides to come to the table. We 
understand that on the Republican side they want border 
security, on the left side they want Dream Act. I think we need 
to come together and fix that. We cannot have one or the other. 
Right now there is a perfect opportunity to compromise and work 
together. Unfortunately, a clean Dream Act will not get passed 
in the House, and for me, it is unfortunate but it is false 
hope. I think we need to work across both aisles to work with 
both parties to make sure that we get something and we can get 
a law and find a permanent solution but at the same time 
emphasize the importance of border security.
    Mr. Collins. I appreciate that answer, because this is 
something everyone in here should understand. I am glad to see 
this. We have been working on this for a while, and I am one 
from my side of the aisle that wants to see this fixed and 
wants to find a fix. But we also have to understand, simply 
putting something forward that will die as soon as it is voted 
out of the House is not a fix. It is just not.
    So we have to understand that and say what can we do to 
find that fix, and I think those are the things that we want to 
look forward to.
    Mr. Arthur, would you agree that since legalizing the 
Dreamer DACA recipients would incur--I think you said this, 
encourage additional aliens to enter illegally in hopes that 
they will also benefit from such legislation. If so, what 
enforcement mechanism is needed in conjunction with a DACA 
legalization bill to ensure we are not back in the same 
position even probably less than a decade from now?
    Mr. Arthur. Mr. Collins, I wholeheartedly believe, and 
history has shown, that every amnesty that we have in the 
United States just leads to additional illegal entries into 
this country. In fact, for what it is worth, the DACA amnesty 
itself, if you want to call it that--it was an administrative 
amnesty--I believe was the primary driver behind tens of 
thousands of unaccompanied alien children who entered the 
United States subsequently, understanding that we would be 
having a hearing like this today where we would be discussing 
legalizing a group of individuals who had entered illegally.
    There are three big things that the President has talked 
about, and that I have talked about. We need to amend the 
credible fear system. Right now, about 89 percent of all people 
who claim credible fear, and last month that was 60 percent of 
all people in expedited removal, are found to have credible 
fear.
    Two, we need to amend the TVPRA. I understand that there is 
a lot of support for it. Unfortunately, it encourages people to 
have their children smuggled into the United States, and the 
Federal Government actually becomes the agent of the smuggler 
to complete the smuggling process.
    Three, we need to end the Flores settlement agreement. 
Twenty days of release means that every family that comes with 
a kid gets released in 20 days. Mr. Graham's former paper 
reported yesterday about the effect that has had in Guatemala.
    Mr. Collins. I appreciate that, and I think we have talked 
about this.
    The Bishop, especially on a day like today, it is also good 
to remember the words of Apostle Paul, who actually said--and 
from my faith background as a pastor as well--``When did I 
become your enemy for telling you the truth?'' When he was 
talking about faith, he was talking about those issues.
    When we talk about this issue, we have to understand that 
being truthful about the situation is also not just compassion 
for compassion's sake but honestly fixing those issues.
    Madam Chair, I do have a couple of unanimous consent 
requests. I ask that the following document, the DHS press 
release, which I did quote from in my original opening 
statement about 70 large groups of 100 or more illegals, and 
also the surge of 338 percent, included in the record.
    Ms. Lofgren [Presiding]. Without objection, so ordered.
    [The information follows:]

      

                 Ranking Member Collins For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Collins. I ask that the Washington Post article from 
March 4th entitled ``Record Number of Families Cull Reality at 
the Border,'' which in part stated this: ``In Guatemala, the 
word has spread that those who travel with a child can expect 
to be released from U.S. custody. Smugglers were offering a 
two-for-one processing, knowing they just needed to deliver the 
clients to the border.''
    Ms. Lofgren. Without objection.
    [The information follows:]

      

                 Ranking Member Collins For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Collins. And one last one is today's New York Times, 
which says: ``Border at Breaking Point as More Than 76,000 
Migrants Cross in a Month.'' I think that is a sign of an 
emergency.
    And with that, I yield.
    Ms. Lofgren. Without objection, those items will be added 
to the record.
    [The information follows:]

      

                 Ranking Member Collins For the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. I recognize myself. But before doing so, I 
will ask unanimous consent to put into the record statements 
from the following organizations: African Communities Together; 
United We Dream; UNIDOS U.S.; The Dream.us; Pennsylvania 
Immigration and Citizenship Coalition; National Immigration Law 
Center; Mainers for Accountable Leadership; Latin America 
Working Group; the Fair Immigration Reform Movement; Center for 
Law and Social Policy; Coalition for Humane Immigrant Rights; 
Center for American Progress article on ``TPS Workers 
Rebuilding States Devastated by National Disasters''; Amnesty 
International; and the American Immigration Lawyers 
Association.
    Hearing no objection, those will be placed in the record as 
well.
    [The information follows:]

      

                    Rep. Zoe Lofgren For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Lofgren. Thank you very much for your testimony. I 
think it is so important that we focus on these issues.
    I just would like to note that I listened very carefully, 
Mr. Arthur, to your comments about incentives. But the Cato 
Institute did an analysis. As a matter of fact, David Beard, 
who is a former Republican Judiciary staffer who is at the Cato 
Institute, studied when did the increases happen compared to 
the DACA announcement, and they are unrelated. We will put that 
report in the record, without objection, as well.
    [The information follows:]

      

                    Rep. Zoe Lofgren For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lofgren. I do think it is important, taking a look at 
the TPS issue, that the announcements that were made seemed to 
me to be pretty much unrelated to the facts on the ground. I 
went and took a look at what the State Department is saying 
about some of these countries. You go to the travel advisories 
and they are saying about El Salvador, reconsider going there, 
it is too dangerous to go. And yet we are saying it is not a 
problem to send people who have been here for dozens of years 
who are American at this point, for all intents and purposes, 
back there to further destabilize that region.
    So I think there is ample reason to question not only the 
decision but the decision-making process on these TPS denials 
or removals.
    I want to talk, Ms. Irazoqui Ruiz--I think I am 
mispronouncing your name. I apologize. The story you told was 
really a very powerful one from your youth about your mother. I 
think it is actually all of you talking about your parents and 
how proud you are of the fortitude that they have shown to 
raise you, and that they came here so that you would have a 
better life, just as my ancestors came here for a better life.
    You are now in medical school. You want to provide 
obstetric care to women in a way that is culturally dignified 
and competent. Explain what that means and what your 
experiences will bring to that, and how that will matter to 
people here in America.
    Ms. Irazoqui-Ruiz. Thank you for your question.
    So, I live in New Mexico, which is a border state, and our 
bordering neighbor is Mexico. I am a native Spanish speaker, 
and I have worked really hard to be able to maintain my 
Spanish. Being on the wards, caring for women who are in labor 
and who are trying to access women's health care, I have been 
able to use my Spanish to provide that direct care.
    But it goes beyond the language, because we have access to 
interpreters. It is limited, but it is there. Many of these 
women have cultural aspects that affect their health care, and 
I intimately understand these cultural aspects as someone who 
belongs to that culture. I cannot say that I am competent in 
the culture even if it is my own because it varies, but I do 
understand where they are coming from and their experience as 
immigrant women, as women who come from first-generation 
families.
    Ms. Lofgren. Thank you very much.
    Ms. Kiazolu, you are here to speak of your experience as a 
TPS and DED recipient. It is clear you are also a Dreamer. You 
came to the U.S. at the age of 6. You lived here your entire 
life. You grew up in America, were educated in America. You are 
poised to do great things in America.
    Why do you think it makes sense to simultaneously provide 
permanent protections to Dreamers and to TPS DED recipients?
    Ms. Kiazolu. So, as someone who has been a recipient of 
both TPS and DED and have many close friends who are also DACA 
recipients, I have seen so many similarities amongst our 
experiences. We pay biometric fees. We have lived our lives 
deadline to deadline, unable to make long-term plans. So our 
common experiences let us know that protecting all of our 
categories of immigration relief is important and necessary.
    Ms. Lofgren. My time is just about to expire, so let me 
just say how grateful I am for you to be here. It is hard to be 
a witness.
    Mr. Park, I hope that it will be possible somehow for you 
to go and fulfill the Rhodes Scholar that you worked so hard to 
earn to represent our country in that way.
    Thanks to all of you.
    My time has expired.
    I would now recognize the gentleman, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Madam Chair.
    I would like to address my questions to Bishop Dorsonville.
    I am a recent Catholic convert. I have been involved in 
immigration issues for a long time, as my colleagues on the 
committee and maybe some of you realize. I can tell you that I 
have been very disappointed in the U.S. CCV's approach to the 
entire immigration problem in that they have not been working 
toward the passage of a law, not just making a political 
statement but the passage of a law, which is one of the things 
that has frustrated all of us here because our immigration 
system is broken, and I think everybody in this room knows 
that.
    I also agree with you that this is a moral issue. I notice 
in your prepared testimony you quote Matthew 25, which I think 
the Lord sets out some things that people who are Christian are 
going to have to follow.
    But my question is, do you believe that the Lord intended 
to make a difference between the stranger who knocks on your 
door and the stranger who breaks into your house?
    Bishop Dorsonville. Well, I guess the most important point 
that we might realize when we are speaking about the Gospel, 
the message that Jesus Christ is inviting us to realize is that 
he came to save and relieve humankind, humanity. He was a man 
who worked with human people. And basically, when he embraced 
the human presence, it was the fact that it was relieving a 
face for that--trying to centralize his eyes looking at the 
person.
    When we see that there might be people on the streets where 
they need our help, our understanding, our love and our 
courage----
    Mr. Sensenbrenner. Let me ask two more questions before she 
shuts me up, and that is I think the fact that there has been a 
lot of illegal migration across the border--the Washington 
Times today has this headline that this illegal migration ends 
up turning a lot of the American public and their 
representatives in Congress against doing something that is 
humane and correct for people like DACA recipients, TPS 
recipients, and other types of people.
    So there has to be a public recognition of the fact that 
the stranger who knocks on the door, and the people at this 
table who are recipients of these programs are getting dragged 
down by the people who are breaking into the house of the 
United States of America.
    Now, in terms of putting together something that deals with 
DACA and TPS recipients on a humanitarian basis, I have been 
around here for a long time, Bishop, and I was here when the 
regional Blue Ribbon Commission that looked into the process of 
illegal immigration and legal migration into the United States 
that was headed by Father Hesburgh, the iconic late former 
president of Notre Dame University, and one of the things that 
I remember in the Hesburgh Report was that Father Hesburgh and 
his commission said that we should never grant an amnesty of 
any kind because an amnesty will only encourage more illegal 
immigration.
    Father Hesburgh was right on that. Ronald Reagan was wrong 
when he signed the Simpson-Mazzoli bill, and we have had an 
increased flood of illegal immigration into this country.
    So I guess, since I have been called a bad Catholic because 
I have a little different viewpoint on this immigration than 
you do, Your Excellency, was Father Hesburgh a bad Catholic?
    Bishop Dorsonville. Well, I am going to tell you something. 
As you might say and recall, Catholic means ``universal.'' When 
we begin to dance in the human spectrum of the whole world, I 
really think that when Jesus came, he did not come for just one 
people but for everyone. As a leader, always I count to all the 
religions to refer to something that is the point. Immigration 
is a human drama, and we are instruments of God's love and 
God's presence in the life and in the journey of those who are 
suffering, and I think that you are with me on this one, right?
    Mr. Sensenbrenner. I think Jesus came to save us all. We 
ought to talk about this a little more.
    Ms. Lofgren. The gentleman's time is expired.
    I will recognize Mr. Cohen for 5 minutes.
    Mr. Cohen. Thank you, Madam Chair.
    In my state of Tennessee, which has many wonderful things 
about it, and then a whole bunch of things that are pretty 
awful about it, we do not allow DACA students, immigrants to 
come without proper papers, to go to college and get in-state 
tuition. And we also do not allow them to get Hope lottery 
scholarships, which are given to the best and brightest 
students to encourage them to stay in the state to help 
subsidize their education. To me, that is a sin, and it shows 
that certain people who probably could not qualify for a Hope 
scholarship are now making the laws, because we take our 
smartest and our brightest and we refuse them the opportunity 
and the encouragement to stay in our state. We want to send 
them to Mississippi and New Jersey and wherever.
    Did any of the students here before us--and you all are 
Harvard and UCLA and University of New Mexico and some other 
schools that are almost as good as Vanderbilt and the 
University of Memphis--did any of you all get refused 
scholarship money?
    Ms. Ruiz, you are nodding. Were you refused scholarship 
money?
    Ms. Irazoqui-Ruiz. I grew up in Phoenix, Arizona, and at 
the time--this was way back in 2008--there was standardized 
testing called AIMS, and if you excelled in all portions of the 
test, you were offered a special scholarship for in-state 
institutions.
    Mr. Cohen. Right.
    Ms. Irazoqui-Ruiz. I remember at my high school there were 
three students who excelled in all portions: myself, my twin 
sister, and another classmate. I remember talking to the 
counselor, and she was talking us through the process of how 
the scholarship was going to work. And then we get to the point 
of what is your Social Security number, and this was after 
already learning about our immigration status, and we said, 
well, we do not have one. And she said, well, then you cannot 
get this scholarship.
    Mr. Cohen. And that affected you and anybody in your life 
setting?
    Ms. Irazoqui-Ruiz. I'm sorry?
    Mr. Cohen. That affected you and anybody in a similar 
setting, right?
    Ms. Irazoqui-Ruiz. Correct.
    Mr. Cohen. In New Mexico.
    Ms. Irazoqui-Ruiz. Since then my family has left Arizona. 
My home is now Albuquerque, New Mexico. I do not know what the 
difference is in policy and access to education there, but in 
New Mexico I was able to do something that I would not have 
been able to do in Arizona. We have access to in-state tuition 
and in-state scholarships because the community has fought to 
give us access to that. So I was able to obtain my Bachelor of 
Science thanks to these scholarships, in addition to funding my 
education myself through hard work.
    Mr. Cohen. And you are in medical school now.
    Ms. Irazoqui-Ruiz. Correct. I am in medical school now, and 
there is no funding for professional and graduate school. So my 
first two years of medical school I worked full time to be able 
to pay for my tuition. So there are still gaps out there.
    Mr. Cohen. Were any other students here refused scholarship 
money because of your status? You are lucky you did not live in 
Tennessee, because then you would have been discriminated 
against in a foolish policy.
    I was able to visit Honduras, and in Honduras we were urged 
to allow people who were under Temporary Protected Status to 
remain in our country, and the President and his wife--they 
were very impressive--made clear that there were just not jobs 
available and opportunity available for people who were in the 
United States under that particular status to get jobs and feel 
protected if they returned to Honduras. Honduras has lots of 
crime, and that is the reason I think the people left.
    For those students who are here, if you had to go back to 
your home nation--I think there is somebody here from Mexico 
and maybe somebody from Liberia. Help me with the other 
countries. El Salvador and Korea. Korea may be a little 
different story, but from the other countries, what would 
happen if you had to go back to your nation of origin?
    Yes, sir, Mr. Palma?
    Mr. Palma. Thank you for the question. I think it is 
something that we all with TPS are struggling with at this 
specific moment. As you just mentioned, the country conditions 
are not there, and that is why TPS has been renewed for so many 
years. We have built a life here, and this is the place that 
our kids were born and call home. So it is a very difficult 
situation to think about it, and we really are focusing and 
trying to make sure we can continue living here in the United 
States because this is the place that we all know is our home, 
and that is why we hope that we will work and that we can 
achieve permanent residence, because struggling with that 
question is very hard and we really want to focus and work to 
achieve permanent residency and to continue motivating our kids 
to really focus on school at this moment.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Cohen. I yield back the balance of my time.
    Ms. Lofgren. The gentleman, Mr. Biggs, from Arizona, is 
recognized for 5 minutes.
    Mr. Biggs. Thank you, Madam Chair.
    My question is initially to you, Mr. Arthur. The timeline 
for DACA is that the registrants had to be here before 2012. Is 
that fair to say?
    Mr. Arthur. That is correct.
    Mr. Biggs. You need folks that have come in under similar 
circumstances since, I think it was, September of 2012. They 
are excluded from DACA participation. Is that fair?
    Mr. Arthur. That is correct.
    Mr. Biggs. And currently there are roughly 700,000 people 
who have registered and received the DACA protections.
    Mr. Arthur. Just short of that. Yes, sir.
    Mr. Biggs. And the estimated number of people who might 
have otherwise been eligible that we do not know but we are 
estimating prior to that September 2012 deadline is roughly 1 
to 1.2 million people. Is that right?
    Mr. Arthur. That is about right, yes.
    Mr. Biggs. Which is why the bill last year provided for 1.8 
million DACA conversions to an amnesty type of program for 
long-term legal status.
    Mr. Arthur. That is correct.
    Mr. Biggs. Post-2012, we have seen an increase in the 
number of family units, particularly in the last six months, 
for instance, of people coming in. What is the estimate of 
post-2012 people who would otherwise be eligible to apply for 
DACA status?
    Mr. Arthur. If we were to move the date forward from 2012, 
we would probably see tens of thousands of individuals each of 
those years, potentially hundreds of thousands of people in 
that period of time. I cannot give you an exact number, though.
    Mr. Biggs. Now, I have met with many DACA recipients, and I 
have never met with one who did not want implementation of the 
Dream Act. I think that is fair to say. Maybe I am wrong, but 
that is because they want familial ties--they want the parents 
who brought them here to remain here, et cetera.
    Mr. Yanez, would you agree with that?
    Mr. Yanez. Sorry. Can you repeat the question?
    Mr. Biggs. Yes. In the course of my meeting with DACA 
students and the DACA population, I have not met anyone who 
would like to not really participate in the Dream Act so they 
can have their parents stay, the parents who brought them here 
stay in the country legally and have a path to citizenship. Is 
that accurate? Would you agree with that statement?
    Mr. Yanez. Are you talking about the parents who want to be 
a part of----
    Mr. Biggs. Yes.
    Mr. Yanez. I think my main focus right now is on getting 
the solution for Dreamers and border security.
    Mr. Biggs. So how do you define Dreamers?
    Mr. Yanez. How do I define Dreamers?
    Mr. Biggs. Yes, how would you define a Dreamer?
    Mr. Yanez. Well, I think for me personally, it is someone 
who came at a young age, and I think that would be up to you 
guys to define that. But I would say, though, we need to focus 
on a permanent solution for Dreamers and border security. I 
think that can be a starting point, and then we can talk about 
the rest of the population afterwards.
    Mr. Biggs. So you would--I assume your mother is still 
here. I do not really need to know that except for I do not 
believe you would want her to be at risk because of legal 
status, unless she has obtained some kind of permanent legal 
resident status.
    Mr. Yanez. I love my mom to death. Everything that I do for 
her--I do everything that I do because of her. I would never 
want her to be separated from me, but that is a further 
discussion that we can talk about. I think right now the focus 
is about----
    Mr. Biggs. So you are focusing on DACA as opposed to the 
Dream Act provisions. That would be the distinction I would 
make.
    That leads me to two final points with the minute that I 
have left, incentives and moral imperatives. People, all of us 
respond to incentives or disincentives. We come and we stay, 
and one of the things that happens is when we move, as Mr. 
Arthur pointed out, every time an amnesty has been granted, we 
have incentivized people to come and stay here illegally. There 
is an incentive to come.
    Similarly, I would ask each of us to say, look, if there is 
a moral imperative for these people who are true DACA 
recipients who have applied for and received DACA according to 
the 2012 deadline and provisions, is there not a moral 
imperative for everyone else who has come post-2012? Because no 
one is talking about that. If that is the case, how large is 
that ultimate population? And no one knows.
    Mr. Arthur?
    Mr. Arthur. Actually, Mr. Biggs, the answer----
    Chairman Nadler. [Presiding] The gentleman's time has 
expired.
    The witness may answer the question.
    Mr. Arthur. Thank you. Just a back-of-the-envelope 
estimate, it would be greater than 300,000 people.
    Chairman Nadler. Thank you.
    Mr. Johnson.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    Mr. Arthur, this is not your first time testifying to 
Congress. Is that correct?
    Mr. Arthur. It is not.
    Mr. Johnson of Georgia. How many times in the past have you 
done so?
    Mr. Arthur. I believe this is the sixth time, Mr. Johnson.
    Mr. Johnson of Georgia. And each time it has been on behalf 
of the Center for Immigration Studies?
    Mr. Arthur. That is correct.
    Oh, no. Actually, I apologize. The first time I testified 
before this committee, I testified in my private capacity.
    Mr. Johnson of Georgia. Okay. And each time you have 
testified, you have been called by the Republicans. Is that 
correct?
    Mr. Arthur. That is correct.
    Mr. Johnson of Georgia. Now, I heard you mention the term 
``chain migration'' in your testimony.
    Mr. Arthur. Correct.
    Mr. Johnson of Georgia. Chain migration is where a 
legalized immigrant would bring family members over. Correct?
    Mr. Arthur. That is correct.
    Mr. Johnson of Georgia. And you take offense with that?
    Mr. Arthur. With respect to the immigration of individuals 
to the United States, I go back to what Barbara Jordan said. 
Ms. Jordan said----
    Mr. Johnson of Georgia. I want you to answer the question. 
You take issue with chain migration?
    Mr. Arthur. I agree with Barbara Jordan when she said that 
immigration to the United States should be in the national 
interest, and absent compelling national interest, it should be 
based on skills.
    Mr. Johnson of Georgia. All right. Well, now, Melania Trump 
brought her parents over chain migration. Is that correct?
    Mr. Arthur. I guess that is correct. I do not actually 
know, but I----
    Mr. Johnson of Georgia. You do not have a problem with 
that?
    Mr. Arthur. We are a non-partisan, non-profit think tank, 
so I do not actually have an opinion with respect----
    Mr. Johnson of Georgia. But you would take issue with Mr. 
Palma, one of your co-panelists, being able to legalize himself 
through one of his children who are already U.S. citizens. 
Correct? You want to see that go away.
    Mr. Arthur. With respect to parents----
    Mr. Johnson of Georgia. Is that true or is that false? You 
do not want to see Mr. Palma come in under what you call chain 
migration. Correct?
    Mr. Arthur. With respect to Mr. Palma, again, ending the 
parental ability to--or the ability to immigrate one's parents 
to the United States would be one of those things that both I 
and Ms. Jordan would recommend doing away with. But I would 
also note that----
    Mr. Johnson of Georgia. Hold on one second, hold on one 
second. You work for the Center for Immigration Studies. 
Correct?
    Mr. Arthur. That is correct.
    Mr. Johnson of Georgia. And the CIS was founded by Dr. John 
Tanton.
    Mr. Arthur. If CIS had a founder----
    Mr. Johnson of Georgia. Is that correct?
    Mr. Arthur. Not to the best of my knowledge, Mr. Johnson.
    Mr. Johnson of Georgia. Okay. So you do not know that Dr. 
Tanton started CIS? Are you going to sit here and deny that?
    Mr. Arthur. The founder of--if there is a founder of CIS, 
it is Otis Graham, who was a professor at the University of----
    Mr. Johnson of Georgia. Let us say, then, that Dr. Tanton 
was intimately associated with the founding of CIS. Is that 
correct?
    Mr. Arthur. I do not know what role Mr. Tanton played.
    Mr. Johnson of Georgia. Do you know that Dr. Tanton's 
stated goal is maintaining a white majority in the United 
States of America?
    Mr. Arthur. I do not know that, but it is not my goal.
    Mr. Johnson of Georgia. That is why he opposes immigration, 
both legal and illegal?
    Mr. Arthur. I do not know anything about that.
    Mr. Johnson of Georgia. You do not know Dr. Tanton?
    Mr. Arthur. I have never met John Tanton. I have heard the 
name before, but I have never met him.
    Mr. Johnson of Georgia. Now, you are familiar with the 
weekly newsletter that your firm puts out, CIS, correct?
    Mr. Arthur. We do a clipping service of immigration 
articles.
    Mr. Johnson of Georgia. You have clipped articles written 
by known racists and circulated those. Is that not correct?
    Mr. Arthur. That I would not know, Mr. Johnson. We do clip 
things from the Washington Post and the New York Times.
    Mr. Johnson of Georgia. You clip things from a racist 
website known as VDare.com. Is that correct?
    Mr. Arthur. I believe that in the past our clipping service 
sent out something from VDare, but I do not know that anything 
like that has ever----
    Mr. Johnson of Georgia. Have you ever read Peter Brimelow's 
book ``The Alien Nation''?
    Mr. Arthur. I have not.
    Mr. Johnson of Georgia. You have not. You know who he is, 
though, right?
    Mr. Arthur. I do not.
    Mr. Johnson of Georgia. Okay. And your supervisor or your 
immediate boss at CIS is Mark Krikorian. Correct?
    Mr. Arthur. That is correct. He is the executive director.
    Mr. Johnson of Georgia. And he is your boss, correct?
    Mr. Arthur. Yes, he is the man who pays me.
    Mr. Johnson of Georgia. And he has stated that, ``We have 
to have security against both the dishwasher and the terrorist 
because you can't distinguish between the two with regards to 
immigration control.'' Is that not a racist, homophobic--well, 
not homophobic, but xenophobic statement?
    Mr. Arthur. I believe that Mr. Krikorian's statement 
actually reflects the immigration laws of the United States.
    Mr. Johnson of Georgia. Let me ask you a question, sir. Are 
you a racist?
    Mr. Arthur. Absolutely not. I named my son after the patron 
saint of immigrants, and when I was an immigration judge I 
would often take my every other Friday off to go down and swear 
in citizens in Baltimore, Maryland.
    Mr. Johnson of Georgia. All right. Well, thank you.
    I would caution my colleagues on the other side to do a 
little bit more vetting, more vetting than you have done of the 
firm that you work for and the people that you work for and the 
views that they hold, because these views do not represent the 
mainstream of America.
    And with that I will yield back, Mr. Chairman.
    Chairman Nadler. I thank the gentleman.
    The gentleman from California, Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Arthur, I have seen the tactic we just saw unfold many, 
many times before. They cannot credibly charge you to be a 
racist, so they simply make the implication. They try to 
associate you with people you do not know, have had no contact 
with, and then leave that implication out there. Frankly, I 
find that an embarrassment to the committee and a despicable 
tactic. I do apologize to you that that would unfold here 
today.
    Mr. Arthur. No apologies necessary, sir.
    Mr. McClintock. You know, the newspapers are reporting 
across the country that we are now facing the largest surge of 
illegal immigration crossing the southern border in over 10 
years, the majority of them with children. In fact, as 
reported, this represents a 300 percent increase in border 
crossings with children over the last year, and we have to ask 
ourselves why. Why is that?
    I think the answer should be obvious. It is because they 
think they can. I am afraid that one of the principle reasons 
they think they can is hearings like this which threaten to 
institutionalize this lawlessness by rewarding those who break 
the laws without securing our border. I do not think it should 
surprise us that the net effect is to encourage growing numbers 
of foreign nationals to expect to enter our country with 
impunity.
    The tragedy of all of that is represented by the young 
people here before us today. They are brought to this country 
illegally as children and, in effect, stranded without a 
country. They have no legal status here, and yet they have 
little familiarity with their own country. I will tell you, 
there is broad support, broad support to address this issue to 
legalize their status, but also a clear understanding that at 
the same time we must fully secure our border and fully enforce 
our immigration laws, or else we simply encourage more children 
to be brought to this country illegally, stranding yet another 
generation of children who undoubtedly will come to us in 10 or 
20 years, right before this very committee, with the same 
stories that we hear today, and they are tragic.
    That is the problem with today's hearing, with the bill the 
Democrats would advance. If it were balanced with border 
security, I have no doubt it would sail through both houses of 
Congress with virtually no dissent and be gladly signed by 
President Trump.
    So this is a bill that is carefully designed not to become 
law. It is carefully designed to self-destruct the moment it 
leaves the House of Representatives, and that is a tragedy as 
well, because it perpetuates what is going on with these young 
people who are brought here through no choice of their own, 
grow up here, and yet have no legal status here.
    I have noticed this paradox of immigration. The unique 
qualities that develop within each country's borders obviously 
makes some countries more desirable places to live than other 
countries. These are the differences that actually drive 
immigration patterns. The more successful a nation is, the 
greater is the demand to immigrate to it. Now most of the 
word's 7.5 billion people live in violent and in poversh 
countries and it is no wonder they find the United States an 
attractive alternative.
    The paradox is this, uncontrolled and indiscriminate 
immigration for them risks importing the problems to our 
country and destroying the qualities that encouraged the 
immigration in the first place. So Mr. Arthur, my question is 
to you: What do you see as the ultimate effect of open borders?
    Mr. Arthur. Again, I would go back to Barbara Jordan who 
talked about the effect of a legal immigration on the most 
vulnerable members of our society. Those who have received less 
than adequate education, those who do not have good work 
experience. Those are going the individuals who are most 
adversely effected by open borders in the United States because 
many of the people, if not most of the people, that come here, 
and we have researched, have shown this are people who have not 
received a good education in their countries and do not have a 
lot of work experience.
    Mr. McClintock. My understanding of traditional asylum is 
that it is reserved for those who have been specifically target 
by their government for persecution based on their race, 
religion, nationality, political opinion or social group. It 
seems to be a new definition to assert that anyone who lives in 
a violent and poversh country has a right to enter ours. What 
am I missing in that?
    Mr. Arthur. Generalized conditions of violence are 
generally not a basis for asylum and poverty is definitely not. 
To be granted asylum you need to be able to show persecution on 
account of race, religion, nationality, membership in a 
particular social group or political opinion either by the 
government or a group the government cannot or will not 
control.
    Chairman Nadler. The time of the gentleman has expired.
    I would like to note the presence of our colleague, the 
gentle lady from New York, Ms. Ocasio-Cortez. And I would also 
like to clarify a previous exchange.
    Representative Biggs asked if DACA recipients had to be 
here since 2012, and Mr. Arthur agreed. In fact, however, DACA 
recipients had to be here for five years before DACA. In other 
words, they had to be here by 2007. I just wanted to clarify 
that point.
    Mr. Arthur. That is correct, Mr. Nadler. Thank you for 
correcting that.
    Chairman Nadler. Thank you.
    And I will now recognize the gentleman from Rhode Island, 
Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you for 
convening this hearing. It has been magnificent to listen to 
the witnesses, who are just examples, extraordinary examples, 
of hundreds of thousands of dreamers, who have brought their 
dreams and their talents and their passions to our country and 
made it their own.
    And I am really proud to be from a State and from a 
district that has many DACA recipients, TPS recipients, and DED 
recipients, particularly from El Salvador, Honduras, Haiti, and 
Liberia, individuals who have made extraordinary contributions 
to the State of Rhode Island and particularly to the City of 
Providence. During the early 1990s, many Liberians fled to the 
United States because their country was plagued by civil war 
and more recently by a major Ebola outbreak. Fifteen thousand 
Liberians called Rhode Island home. And it is a thriving and 
wonderful community, and Rhode Island is better because of it. 
And that example repeats itself all across our country.
    And so I first want to say thank you to the witnesses for 
your personal stories, for your courage, for your resilience, 
for the magnificent contributions you are making. And I 
apologize that you are all living in this state of limbo, which 
is so undeserved, and hope that we can resolve this. You should 
not be used as bargaining chips. You represent yourselves and 
other human beings. You are our neighbors, our friends, our 
family members, and members of our community. And you deserve 
better treatment than you have received.
    You were brought to the United States by your parents for 
the same reason my great-grandparents came here, to build a 
better life, and worked hard to do that. And you love our 
country, your country. You share our values. You know, really, 
no other country but America. And you are American as much as 
anyone else but for maybe a piece of paper. And, frankly, if 
you were forced to return and others in the same situation, you 
might be required to go back to countries that you barely know 
and that continue to have armed conflict, disease, natural 
disasters, and other extraordinary challenges.
    So, you know, we talk a lot at this hearing about the 
incentives as if this is a one-sided deal, as if the dreamers 
get everything and America gets nothing in return. You all have 
given great examples of the benefits that you bring to the 
communities that you are a part of. And so I hope we start 
understanding the central issue that immigrants who have come 
to this country add to the strength and vitality of America. 
And your individual contributions make that case more 
eloquently than anything I could say. So I want to say thank 
you.
    I want to just now turn to Yatta Kiazolu if I pronounce 
that correctly because you I think so wonderfully represent a 
great community in my home State. Liberia, I have had the 
privilege of going to Liberia to see firsthand the status 
things in Liberia. Can you talk a little bit about what this 
uncertainty in your own status and what will happen at the end 
of the month means to you and to other Liberians who are DED 
holders and particularly how you start to think about the 
prospect of being forced to leave America, the only country you 
know, and what that would mean practically in your life?
    Ms. Kiazolu. So thank you for your question. DED for 
Liberia ends in 25 days. And this experience has been without a 
doubt the most terrifying thing I have ever been through, and I 
just find the whole situation to be ultimately dehumanizing. I 
know for myself and other Liberians who are on DED--I have met 
a mother whose child requires open heart surgery who is also on 
DED--we are in a state of panic. Our communities are in a state 
of panic, and our communities are in a state of crisis. And so 
for many people, including myself, I have had to pass up on job 
opportunities because I couldn't commit to working past March 
31st. It means financial gaps. It means abandoning children and 
homes. And so we really appeal to Congress to pass something, 
to pass a permanent solution for DED, TPS, and DACA.
    Mr. Cicilline. Thank you.
    Mr. Graham, you know, of the many causes which you could 
have taken up, you took up this cause, TheDream US. And you 
said it was founded in your written testimony by a prominent 
Democrat and a prominent Republican. I wonder if you would talk 
a little bit about what has changed in your view that this 
doesn't seem to be as bipartisan an issue as it should be and 
why you chose higher education as a particular focal point as 
it relates to dreamers and the impact that is long-term for 
these young people at the table and others that they represent.
    Mr. Graham. Congressman, I am from Washington, D.C. And 
that has made me an expert, among other things, on the 
difficulties of out-of-state tuition. I came to this House 20 
years ago and met with Republicans, who were then in the 
majority. And they crafted along with Democrats the D.C. 
tuition assistance grant, which made it possible to more than 
double the number of D.C. public school students attending 
college and graduating from college. But in keeping our 
statistics, we noted one group where college attendance was 
zero, and that was the dreamers. And I was puzzled by this and 
unable to understand what the problem was. So I met a bunch of 
dreamers. And that is what started my journey to this.
    I had been interested in issues of access to higher 
education. And the dreamers are the most unique problem going. 
They cannot get Pell Grants. They cannot get loans. They cannot 
get DCTAG. In most states, they cannot get state grants either 
or state loans. So, in effect, they can't go to college unless 
the college gives them a full scholarship. Colleges are 
magnificent in dealing with the dreamers. What each of our 
students talked about, the tension, the pressure brought into 
their lives by the temporary nature of DACA and TPS, is not, in 
the least, exaggerated.
    Thank you for the question, Congressman. I don't find any 
diminishment in bipartisan sentiment. I was really heartened by 
Ranking Member Collins' statement that he would like to work 
toward a bipartisan solution for DACA and TPS in the course of 
this Congress, and I take it to heart. I have found this among 
members of both----
    Chairman Nadler. The gentleman's time has expired.
    Mr. Cicilline. Mr. Chairman, I have a unanimous consent 
request.
    Chairman Nadler. The gentleman will state his unanimous 
consent.
    Mr. Cicilline. I ask that a letter from a coalition of 30 
labor groups, including the AFL-CIO, American Federation of 
Teachers, AFSME, United Auto Workers, and United Steelworkers, 
and a second letter from the Service Employees International 
Union be made a part of the record.
    Chairman Nadler. Without objection.
    [The information follows:]

      

                 Rep. David N. Cicilline For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. The gentleman from Pennsylvania, Mr. 
Reschenthaler.
    Mr. Reschenthaler. Thank you, Mr. Chairman.
    I just want to take an historical perspective on some of 
these issues. Looking back to '86, when the Immigration Reform 
and Control Act was passed, 1.1 million illegal immigrants were 
legalized under the so-called Special Agricultural Worker 
Program. According to some studies, up to two-thirds of the 
applicants for status under the Special Agricultural Work 
Program were fraudulent. This includes Mahmud Abouhalima's 
application. He received a legal status, despite the fact that 
he was a New York City taxi driver. Again, he received this 
status under the so-called Special Agricultural Work Program. 
This man also helped orchestrate the 1993 World Trade Center 
attacks. The only thing this terrorist ever planted was a bomb.
    Mr. Arthur, if this committee considers legislation to 
provide legal status for certain groups of illegal immigrants, 
what should be done to ensure we don't see the same levels of 
fraud that we saw in '86?
    Mr. Arthur. One of the proposals, sir, that was included in 
one of the--which I think is included in the DREAM Act from the 
last Congress; I don't know if it is from this one--is a 
confidentiality provision. And I was an INS trial attorney in 
San Francisco and Baltimore. And in the A files, the alien 
files, all of that information is contained under a red cover. 
You can't go under that red cover. None of that information is 
available. And, quite frankly, the respondent in court may make 
a statement that is completely different from that. 
Confidentiality provisions do nothing except for protect 
ineligible and removable aliens. They should not be included. 
And they are a statute of frauds.
    Mr. Reschenthaler. Mr. Arthur, in your opinion, what could 
happen if we provide legal status to certain illegal 
immigrants, yet we don't address illegal immigration 
enforcement issues?
    Mr. Arthur. We are going to be back here in a couple of 
years, maybe even with the same group of individuals. Every 
amnesty brings with it the same two issues. One, it encourages 
additional legal immigration. Two, there is a huge amount of 
additional legal immigration that comes from chain migration, 
as I mentioned before. The President's proposals of January of 
2018 actually would have mitigated these things. It is not a 
tradeoff. It is not a quid pro quo. It actually mitigates the 
problems, beefs up border security, and addresses the issue of 
chain migration.
    Mr. Reschenthaler. Thank you, Mr. Chairman. I yield back 
the remainder of my time.
    Chairman Nadler. Thank you.
    The gentleman from Maryland, Mr. Raskin.
    Mr. Raskin. Mr. Chairman, thank you very much.
    Mr. McClintock began by apologizing for Mr. Johnson's 
statement. And I want to begin by apologizing for Mr. 
McClintock's statement because he said something that must have 
been very painful to the young people on the panel when he said 
that the dreamers are stranded without a country and they don't 
even know their own country.
    And I want to say, with Mr. Cicilline, I was listening to 
you guys. I was filled with pride and admiration for what you 
have done. And I want to tell you that this is at least one 
member of Congress who knows that this is your country. This is 
where you belong. And it is the only country that you know. And 
we are going to fight for you to stay here and to adjust your 
legal status so you can be permanently and indefinitely a part 
of America.
    James Madison said that America would be an asylum to the 
persecuted and oppressed of people of all religions and 
nations. Tom Paine said we would be an asylum for humanity, a 
haven of refuge for people fleeing oppressive circumstances 
from around the world.
    So I look at you, and I see in you all of the hope of this 
great country. I see my children. One of you is going to be a 
doctor. I have a daughter who wants to be a doctor. One of you 
is an historian, on the way to being an historian. I have got a 
son who may want to be an historian, maybe a lawyer, too, maybe 
an historian and a lawyer. One of you is working in corporate 
America, and I have got a daughter working in corporate 
America. And I am so proud of her, and I am so proud of what 
all of you have said today.
    Now, I would like to give each of you guys 15 seconds--but 
I am going to hold you to it because we are on strict time 
limits here--to tell us what America means to you. What does 
America mean to you, Mr. Park? Let's start with you.
    Mr. Park. Thank you, Congressman, for your question.
    America to me, it is home. And I don't think that my 
achievements have nothing to do with the fact that I have grown 
up here. And I have made deep, deep, and profound connections 
to the people and to the institutions and to the practices 
here.
    Mr. Raskin. Thank you.
    Ms. Kiazolu.
    Ms. Kiazolu. America to me has meant promise. As an 
historian, I think about many women whose histories of progress 
has created a much better society for all of us. And so I look 
forward to being able to make my own contributions in that way.
    Mr. Raskin. Thank you.
    Ms. Irazoqui-Ruiz.
    Ms. Irazoqui-Ruiz. The United States is my home. I have 
been here since I was three years old. And I don't know any 
other place other than this. I went to public school here. I 
went to UNM. I am at the medical school there. And I want to 
provide medical care in the State of New Mexico. I don't know 
anything other than this place.
    Mr. Raskin. Thank you.
    And Mr. Yanez.
    Mr. Yanez. Yeah. To me, America means that, you know, a kid 
who is homeless, despite the obstacles you face, you know, he 
believed in the American dream. I believe in freedom, 
prosperity, working hard, just standing on your own two feet. 
And that is exactly what this country has provided for me.
    Mr. Raskin. All right. Well, I thank you all for those 
eloquent, heartfelt statements.
    Mr. Palma, let me ask you. You are here I know under TPS. 
And I have tens of thousands of people in my district who are 
under TPS. We have a lot of people from Salvador, from 
Honduras, from Guatemala who fled the civil wars and the 
authoritarianism and the death squads, and which, of course, 
America was implicated in in the 1980s, and who are here part 
of our country. Please, if you could also hold to 15 seconds?
    Mr. Palma. Yeah. Thank you for the question. I think 
America to me is a welcoming place where you can have an 
opportunity and set the future generation to even a better path 
than yourself. That is to me the America I believe.
    Mr. Raskin. Very good.
    Mr. Graham, let me come to you about TheDream US. You have 
devoted yourself to people in their situation, to dreamers, to 
young people who are here. They are in high school here. They 
grew up. Many of them went all the way, K through 12, in 
America, some of them in the armed services. Some are working. 
But your group, as I understand it, is giving scholarships to 
people who otherwise wouldn't be able to get them because of 
their status. I think I saw you testified you have given away, 
what, tens of thousands of them. But how many kids do you have 
to turn away? Give us a sense of the numbers.
    Mr. Graham. Thank you, Congressman. We have about twice as 
many applicants. We have no advertising budget. So students 
have to find us. And we are a new program. But we turn away 
about an equal number to what we grant.
    Mr. Raskin. I think you are going to be getting a lot more 
applicants now that you have testified for the first time 
before Congress.
    Mr. Graham. Well, here is hoping so because so many 
dreamers and so many TPS students are wildly successful in 
college. They are told they can't get there. Once they get in, 
they perform magnificently.
    Mr. Raskin. Okay. And, finally----
    Chairman Nadler. The time of the gentleman has expired.
    Mr. Raskin. Thank you, Mr. Chairman.
    Chairman Nadler. The gentle lady from Arizona, Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman.
    And thank you, all of you, for coming today and all of you 
in the audience. I was over in Homeland Security Committee 
right before this. And we were talking with Secretary Nielsen, 
the secretary of Department of Homeland Security. And so today 
for me, it is all about these type of issues.
    I do have a question for Mr. Arthur. And, you know, in 
Congress, last year, we proposed several bills on immigration 
reform. And one of them I supported would have combined 
legalization for DACA recipients along with funding for border 
security and also reforming some of our immigration laws that I 
believe are too loose right now, especially on asylum claims. 
And some of our laws right now are actually having cartels use 
these men and women and children and incentivize them to 
travels thousands of miles to get here. And, as we just heard 
testimony from Secretary Nielsen, like 30 percent of the women 
are sexually abused. Girls as young as 10 years old are given 
pregnancy tests because we are afraid that they are being 
sexually abused by these cartels.
    And so I guess my question to you is, do you think that we 
should pass legislation similar to that that is a comprehensive 
approach to not only helping DACA recipients but also securing 
our border and changing our immigration laws so that we can 
solve this together or, you know, otherwise I am, quite 
frankly, afraid that if we just do one piece and don't combine 
it with the other, that we are just going to get one piece and 
the problem is going to continue? Do you agree with me? Do you 
think that we should have a more comprehensive approach?
    Mr. Arthur. Thank you, Ms. Lesko. With respect to the 
direct question, yes, it needs to be comprehensive. We need to 
turn off those magnets that are encouraging people to undertake 
this risky journey. About two-thirds of the individuals who 
travel to the United States are the victims of some sort of 
violent assault. About one-third of women--I think it is 
actually 31 percent--are sexually assaulted on that journey to 
the border. Smuggling, according to the United Nations, it was 
about a $3.7 to $4.2 billion industry between 2014 and 2015. So 
we are talking about a big business. And when you are out in 
the middle of the desert, you are at the mercy of that 
individual, and that person can do anything that they want to 
you. And these smugglers do not advertise the dangers of the 
journey before people undertake it.
    We need to turn off that magnet. We need to take away the 
incentives that encourage people to, one, undertake the risky 
journey themselves, as President Obama proposed; two, to not 
bring their children with them to the United States; and at the 
same time, to also, you know, end the chain migration, you 
know, that will increase, exacerbate the effects of the----
    Ms. Lesko. Thank you. Thank you very much.
    And with the little over one minute I have left, I have a 
question for Mr. Yanez. Sir, I understand you yourself are a 
DACA recipient. And thank you for coming today to talk about 
your experience. I appreciate that.
    My question for you is, what do you think the Trump 
Administration is doing well to improve our Nation's 
immigration system?
    Mr. Yanez. First and foremost, if President Trump is 
hearing this, I first want to thank him for being compassionate 
and courageous because he has brought solutions to the table. 
He has proposed an opportunity to provide a pathway to 
citizenship. To me, like I said, it doesn't matter if you are 
Republican or Democrat. If you give me an opportunity, I am 
always going to be grateful for that.
    At the same time, he has brought the issue and the 
importance of border security. Whether you agree with national 
declaration of emergency, that is up to you, but he has brought 
that to the forefront. And I think it is very important if you 
want to solve immigration reform that we need to talk about 
immigration control. We can't just have the dreamers. You know, 
unfortunately, it cannot just be all about the dreamers. We 
need to have border security personnel part of the discussion, 
angel families part of the discussion, a whole holistic view if 
we really want to solve this problem.
    Ms. Lesko. Thank you, Mr. Chair. I yield back my time.
    Chairman Nadler. I thank the gentle lady.
    The gentleman from Arizona, Mr. Stanton.
    Mr. Stanton. Thank you very much, Mr. Chair.
    And I do want to thank the witnesses for being here today 
and sharing their powerful stories. You know, when we talk 
about dreamers, we often speak in big numbers. We talk about a 
lot of their achievements. We have heard some amazing 
achievements here today. And it is important to highlight those 
achievements. Fifty-seven percent of DACA recipients were able 
to get their first job. Fifty-eight percent opened a bank 
account. Sixty-two percent bought their first car. So, in 
addition to talking about these amazing achievements, we should 
learn the individuals' names and stories that help us 
understand emotionally what we already know intellectually.
    Dreamers are our friends, our neighbors, our colleagues. 
And we are certainly better off because they are here. So I 
want to take a moment to highlight 5 of the estimated 26,100 
DACA recipients from my State of Arizona. Salvador Macias 
graduated from Arizona State University and ASU law, a 
practicing attorney in Phoenix; Abril Gallardo, a leader with 
LUCHA, a grassroots organization that advocates for Arizona's 
working families. Abril was part of the movement that led to a 
minimum wage increase in Arizona which is benefitting hundreds 
of thousands of families in our State; Karina Ruiz, a 
biochemistry graduate of Arizona State University, president of 
the Arizona Dream Act Coalition; Reyna Montoya, an educator and 
founder and CEO of Aliento, a community organization that 
transforms trauma into hope and action. She is the first DACA 
recipient recognized by Forbes magazine as one of 30 under 30 
social entrepreneurs here in the United States of America; and, 
last, Ellie Perez, whom I have gotten to know very well, born 
in Veracruz, Mexico, immigrated to the United States with her 
family when she was four. In 2013, she applied for and was 
granted DACA. She graduated from Arizona State University, 
became the first dreamer employed by the City of Phoenix while 
I served as mayor of that city. Ellie then worked on my 
campaign. And once elected, I wanted her to join me in the 
Nation's capital to work in my office, but because of her DACA 
status, she is unable to work in Congress, although she has the 
skills, the knowledge, and the drive to do so.
    Because of dreamers like Ellie and others, who have the 
hopes and want to work in Congress one day, I was one of many 
original cosponsors of legislation introduced by my colleague 
from Arizona, Congressman Ann Kirkpatrick, the American Dream 
Employment Act, which would allow DACA recipients to work as 
staff members here in the halls of the United States Congress.
    But let me be clear. It is not because of their 
accomplishments that they deserve to stay. It is not just 
because of their economic and cultural contributions that they 
should be officially welcomed into our Nation. Our humanity and 
our values are not dependent on their college degrees or taxes. 
They deserve to stay in the United States with peace of mind 
and a future to look forward to because Salvador, Abril, 
Karina, Ellie, Jin, Yazmin, Hilario, and the thousands of 
dreamers across our country are human beings who deserve to be 
treated with dignity. And I want that to be very clear.
    The dreamers in my State of Arizona have made me extremely 
proud, not just because of their achievements, although there 
are many, but because of their grit, their determination to 
fight for themselves and their communities. And let's make 
dreamers proud of us by finding the solutions that allow them 
to stay because they deserve to stay.
    And of all the testimony we have heard here today, one 
person, in particular, breaks my heart: Dr. Ruiz. You used to 
live in Phoenix, Soon-to-be-Doctor, but you had to leave 
because we didn't offer instate tuition to dreamers. And now 
you are a student at University of New Mexico. We have a doctor 
shortage in the State of Arizona. I am going to try to recruit 
you back as soon as this hearing is over. But it is really 
heartbreaking that someone with your talent and skills chose to 
leave my State because of a self-defeating policy that forces 
young people like you to make college, in your case medical 
school, unaffordable.
    So the question I have, really, is for you, Soon-to-be-
Doctor. DACA recipients have been able to do many things. And 
those have been described here today. But why are DACA 
protections not enough? Why do you think this Congress should 
take that additional step and pass the DREAM Act into law, 
please?
    Ms. Irazoqui-Ruiz. When you talk about recruiting me back 
to Arizona, I am finishing my third year of medical school and 
will be beginning my fourth year and soon be applying to 
residencies. In order to recruit me back to Arizona, I need to 
be able to apply to residencies and show them that, one, I will 
remain in this country, which is very tenuous right now in the 
situation that DACA is in. I applied for reapproval of my DACA 
permit and my two-year work permit. I have not received it yet. 
And so I am in the situation talking to administrators, talking 
to people that have dealt with DACA recipients of, what am I 
going to do? I will be able to finish school, obtain my M.D. 
And then can I even practice medicine?
    Mr. Stanton. I thank you very much for that answer.
    I don't know if anybody else had any additional. The 
question was, beyond DACA, why does Congress need to take that 
next step?
    Chairman Nadler. The time of the gentleman has expired. Any 
witness may answer the question.
    Mr. Stanton. Mr. Chair, I do have a unanimous consent 
request.
    Chairman Nadler. We will take care of that in a minute.
    Mr. Palma, did you want to say--please, sir.
    Mr. Palma. Yes. As a TPS recipient and I think everyone 
with DACA, I think that we have seen the potentials of everyone 
protected for these programs. I think that we should give the 
opportunity to make themselves comfortable in this country and 
give them the opportunity to live and start thinking in a 
permanent way, just see the potential in the things we have 
contributed. Just imagine what else can we do. Thank you.
    Chairman Nadler. Thank you.
    The time of the gentleman has expired. The gentleman has a 
unanimous consent request.
    Mr. Stanton. Yes. I would like to submit for the record 
four statements from business organizations in support of what 
we are talking about here today, support for the dreamers and 
TPS and DED. Those letters are from the National Association of 
Manufacturers, the Society for Human Resource Management, a 
business organization called TechNet, and the United States 
Chamber of Commerce. Thank you very much, Mr. Chairman.
    Chairman Nadler. Without objection, the documents will be 
entered into the record.
    [The information follows:]

      

                    Rep. Greg Stanton For the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Nadler. I now recognize the gentleman from North 
Dakota, Mr. Armstrong.
    Mr. Armstrong. Thank you.
    We have a doctor shortage in North Dakota, too. So if you 
enjoy all four seasons, we would love to have you. [Laughter.]
    Mr. Armstrong. And, seriously, I think it is important 
because this is a political exercise. This is a policy 
exercise. This is a short-term issue. It is a long-term issue. 
There are so many different unintended consequences. But it is 
your lives. And we always have to recognize that. And it is 
something that has been--I agree with Ranking Member Collins 
that given the current makeup, we have to deal with some small 
issues particularly, but the problem with immigration is that 
almost never works. We get into a situation where a Temporary 
Protected Status may not be granted by future administrations 
solely because of how we end up here.
    My wife is a legal immigrant. She has a green card. I think 
when we talk about what qualifications or what kind of offenses 
you have where you wouldn't qualify anymore, we have to 
recognize that almost all criminal issues are creatures of 
state statute, not Federal statute. So how we deal with a 
marijuana conviction in North Dakota compared to Colorado can 
directly affect your immigration status as a legal immigrant. 
And so when you carry it over to DACA or any of these issues, 
it happens the same thing. I personally don't think anybody, 
whether you are a dreamer, whether you are a DACA recipient, 
should be told to leave this country because you smoked a joint 
when you were 19 years old. I don't believe that. But how it is 
treated in different--in North Dakota, we had to change our 
probation law down from 365 days to 360 days. We never intended 
a misdemeanor to be qualified as a felony. What we found out is 
it was being qualified as a Federal felony.
    So when we get into these small temporary or deals where we 
actually try to move forward, we have to understand that they 
do have long-term policy repercussions. And then when we get 
into the big long-term policy repercussions, we turn into 
complete absolute legislative inertia because now everything 
comes into play: how we deal with streamlined immigration, how 
we deal with legal immigration status, how we do that for 
people here because guys like me, as much as I want to do 
something, I don't think that we should treat anybody in a 
better situation than we do a current legal immigrant holding a 
green card. And so we get into these types of situations and we 
move forward. And I have about 10,000 questions, and I am not 
sure I am going to ask 1 because it is. It is complex, and it 
is nuanced.
    I live in a border town. My first 20 public defense cases, 
the first 15 were illegal reentry of previously deported alien. 
And they are coming across. And if somebody is from Winnipeg, 
Canada and they want to come shopping in Grand Forks, North 
Dakota, if they have a prior shoplifting charge, they can't get 
into the country legally.
    So I am hopeful we can find some kind of solution or at 
least some kind of meaningful temporary solution that we can 
work with all of these immigration issues, particularly like 
dealing with these issues, so when you do get status here and 
you go through the legalized citizen process and all of that, 
that we can do it in a manner in which it is more efficient, it 
is more streamlined, it is a way to handle. But we have to be 
careful, and we always have to recognize that there are people 
here with that status that have done it the right way. And, 
regardless of who you are or how you got here, we have to make 
sure that we are fixing that process for them as well and not 
just for you all.
    But there is an opportunity to do something here. We need 
to continue to do it. And I just want you to know that either 
side of this aisle, there are people here that really, really 
want to work with this. And I recognize that, like I said, this 
is not just a political exercise. This is not a policy 
exercise. You guys are living this every single day. And it is 
unfair to all of you that has happened, and we need to continue 
to work forward.
    But, I mean, I will actually ask one question. And it is 
for anybody. So when we do this, like--and I am just going to 
use--we do this a lot in the Federal Government. We create a 
situation, and then we create a waiver process. And then we 
come back to it. And we just make it an automatic waiver. Once 
we institute it, we institute it with good intentions. And 
Temporary Protected Status is a perfect example. There are 
various reasons why it is granted. There are various reasons 
why it was granted in the past. There are various reasons why 
we need to continue granting it now and in the future. But how 
do we tighten that up so we make it so we don't grant these 
automatic waivers so it actually is a meaningful exercise? 
Because that is part of the reform that I think we actually 
could do here pretty quickly.
    Mr. Arthur. If I could, sir?
    Mr. Armstrong. Yes.
    Mr. Arthur. In my testimony, in my written testimony, I 
actually note the fact that it should be good for one year and 
it should be sent to Congress so the Congress can do an up-or-
down vote on Temporary Protected Status to make sure that it is 
the temporary benefit that it was meant to be and because the 
danger is future administrations may not use it in an 
appropriate situation because of the ratchet effect it would 
have.
    Mr. Palma. I think that the TPS has been renewed by both 
political parties, Republicans and Democrats, because there has 
been always a reality in why to renew it. I think at this 
specific moment, we should be thinking about this population 
that has been living in the United States for more than 20 
years who have roots in their communities. And we should be 
thinking about that community and how to support the country 
for this community to continue living in a safe place.
    Mr. Armstrong. Thank you. And I completely agree with you. 
I think when we start drawing these lines, what we end up 
having is 17,000 different lines. And that is where the 
problems become. And I don't think we should. I think we should 
figure out a way to deal with this temporarily and then really 
truly solve it in a permanent manner.
    Chairman Nadler. The gentleman's time has expired.
    The gentle lady from Florida, Ms. Mucarsel-Powell.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman.
    This is a very emotional issue for so many reasons. You 
know, I am an immigrant, like yourself. I came here at the age 
of 14. And I know that we have a room full of dreamer DACA 
recipients, TPS. I just stepped out for a few minutes to meet 
so many of them from Florida, from my district. We have a large 
population of dreamer DACA recipients and TPS recipients, who 
right now, as we hear today, are living in limbo.
    You have placed your roots here in this country. As far as 
I am concerned, you are as American as any of us. And it gives 
me great optimism to hear my colleague across the aisle being 
committed to finding a solution because one of the problems--
and I do hear this coming from the other side--is that they 
talk a lot about the rule of law and coming here legally, well 
overstaying their visas. The problem is that this country 
doesn't provide a line, a path to citizenship. It doesn't 
provide a line for permanent residency.
    We have so many members of our community who are right now 
just like all of you: studying to be doctors, providing 
healthcare services that are so greatly needed in my community. 
You are teachers. You are parents. You are business owners. The 
economic impact would be tremendously negative if you were to 
from one day to the next leave. We need each and every one of 
you in this country. And we will do everything in our power in 
the House--I can tell you that in this committee--to make sure 
that we provide a safe place for you because you are American.
    I want to bring up a few examples of people that I actually 
just met with. And one of them is a student who just graduated 
from college. And she wants to be an attorney, and she doesn't 
have the funding to go to college because the State, Florida, 
doesn't provide scholarships for DACA recipients. So my first 
question is to Mr. Graham. I don't know if you have done a 
study on this, on what it would be economically speaking, the 
economic impact of actually providing college scholarships, 
graduate school scholarships for dreamers in the State of 
Florida, what it would mean for us in terms of our progress, 
our economy, and the impact in our communities.
    Mr. Graham. Thank you for the question, Congresswoman. I 
can't do a horseback estimate of that, but there are 10 states 
now, including the State of California but also including the 
State of Texas, Washington, Minnesota, very recently New York, 
New Jersey, and Connecticut, that give state aid to dreamers 
equally with state aid to other eligible students. Each has a 
residency requirement. You have to have graduated from high 
school and in some cases gone three years to high school to be 
eligible for state aid.
    It would be relatively easy to ask California or Texas 
education officials what has been the effect of that. And, as 
you know, Florida and most states gather records from all of 
their state colleges and all private colleges in the case of 
Florida and look at the effect on their earnings. So the 
question you are asking could be answered by asking any of the 
10 states that give state aid to dreamers.
    Ms. Mucarsel-Powell. Okay. Great. Thank you.
    I wanted to ask again Yazmin--very exciting. You know, we 
need women like you. We need Hispanic women that study to be 
doctors. There is such a tremendous shortage of healthcare 
providers but especially in medical schools. I used to work at 
a medical school. And we were constantly trying to recruit 
women, women of color that have the cultural sensitivity to 
provide healthcare services to these communities, especially 
down in Miami and in Florida. So my question goes to you.
    How has this recent DACA rescission negatively impacted 
your ability to excel as a medical student?
    Ms. Irazoqui-Ruiz. I really appreciate your question. Thank 
you for that question.
    In 2017, I took an entire leave of absence from medical 
school. And the background to that is the presidential 
elections and the inauguration had a lot of implications for me 
and for my family and people who are like us. There had been a 
lot of talk during the presidential campaigns about what would 
happen to DACA and what would happen to immigrant families 
based on the promises of people who were running. And mentally 
as a human being who loves this country and who is giving 
everything because this is my home, theoretically and also 
hearing from people back home in New Mexico, which is a 
majority minority state, that I don't belong here, that this 
isn't my home, and that I am taking the place of a natural-born 
citizen was really difficult. So I took an entire year off 
school to spend time with my community and to realize their 
realities. Whereas, my biggest worry was my next test and how I 
am going to perform, their biggest worry was ``My dad just got 
detained and he got deported, and we don't know how we are 
going to pay rent.''
    It has been really difficult. I just shared I finished my 
surgery clerkship, and I am going to be really vulnerable with 
you all. I literally had a breakdown four days before my shelf 
exam, which is the National Board of Medical Examiners exam at 
the end of the surgery clerkship, because the uncertainty as I 
had tried to begin to apply to residency of ``What am I going 
to do? I am working so hard right now. And at the end of the 
day, it may be worth nothing.'' So I literally spent 30 minutes 
crying. And then I was like wiped my tears, got on my computer, 
cried a little bit more. I was like, ``I have to keep 
studying.'' But it is really difficult on my mental health and 
the mental health of my peers. There are four other 
undocumented students at the medical school who are 
experiencing the same thing.
    Chairman Nadler. The time of the gentle lady has expired.
    Ms. Mucarsel-Powell. Thank you. Thank you. We need you.
    Chairman Nadler. The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. And thank you all for 
being here.
    A question for Mr. Arthur. Since you had been an 
immigration judge, you had said in your testimony that you had 
cases that involved threats of violence from gang members of 
tender years, some as young as 12. You said ``youth'' can be a 
relative term as it relates to different cultures. And we note 
that we have got criminal gangs that have become a scourge here 
in the United States. We have got recently an uptick in crimes 
committed by alien gang members, including multiple murders 
from MS-13, 18th Street gangs, right here in Virginia, 
Maryland, D.C., New York, and Texas. So if Congress were to 
actually pass a legalization of people who were children that 
were brought here by parents coming in illegally, how would you 
seek to deal with the gang members who came in?
    Mr. Arthur. And that is a very important question. I would 
note that former Representative Randy Forbes had introduced a 
bill I believe in a number of different Congresses that would 
have made gang membership itself a ground of inadmissibility 
and removability. And, again, quite frankly, Judge Gohmert, I 
believe that it probably should be because these are 
individuals that prey on their own communities, by and large. 
They are more of a danger to their own communities than they 
are to the country at large, but, in fact, they are a danger to 
the country at large as well.
    We had a horrible incident up in Kensington, Maryland in 
which a young woman who had been sex-trafficked to the United 
States was beaten with a baseball bat. I believe it was 23 
times because they did not--anyway, I would prefer not to 
complete that sentence.
    Mr. Gohmert. Yes.
    Mr. Arthur. So it is an issue. The other issue is that, you 
know, we talk about the violence that exists in these 
countries. A lot of the violence that exists in El Salvador is 
a result of MS-13. We know from the Obama Treasury Department 
that MS-13 funnels money that it makes in the United States 
through sex trafficking, amongst other things, back to El 
Salvador to continue the cycle of violence that exists in that 
country.
    So, again, we should make gang membership a ground of 
removability. It should be a definite bar to any DACA receipt. 
And I think that Representative Forbes' bill, which I can send 
to the committee, is definitely a good template to use.
    Mr. Gohmert. Well, and you mentioned gang membership should 
be a bar, but back as a felony judge in Texas, a common 
problem--and it is a problem for people that are U.S. citizens 
and people that were brought here illegally--is driving while 
intoxicated and, obviously, other crimes. You know, there was a 
child--I think she was four--killed and thrown in a well in my 
home county by someone who came in illegally. Shouldn't there 
be a bar to people that have come in and committed crimes while 
here? And if you think so, to what extent of a crime would be a 
bar?
    Mr. Arthur. I would note that multiple criminal convictions 
are themselves a ground of removability. Drunk driving is not 
actually a ground of removability. I think that surprises a lot 
of people. There have been a number of proposals in the past to 
make it such. Mothers Against Drunk Drivers estimates that the 
average drunk driver drives 90 times drunk before they are 
arrested the first time. So one conviction actually represents 
90 different offenses. And, again, you know, my son drives on 
the highways of America. I wouldn't want him to be the person 
that encounters that individual the 90th time.
    Mr. Gohmert. Well, I had had a guy that had nine DUIs 
before he came into my courtroom because he finally not just 
drove while intoxicated but hit some people and hurt them very 
seriously. Don't you think that ought to be a bar if you have 
been convicted of driving under the influence or driving while 
intoxicated?
    Mr. Arthur. Definitely should be a bar. It should be a bar. 
It currently is a bar to DACA, but I definitely think that it 
should be a ground of inadmissibility and removability from the 
United States. I believe that Canada has a rule exactly like 
that, and we should adopt it.
    Mr. Gohmert. Yes. Well, thank you. So it appears the most 
compassionate thing we could do for the people in Mexico and 
Central America is secure the border so the money doesn't keep 
flowing to the drug cartels and the gangs.
    Thank you for being here. I yield back.
    Chairman Nadler. I thank the gentleman for yielding back.
    The gentleman from California, Mr. Lieu. I am sorry. I am 
getting it wrong. The gentle lady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much for 
the hearing and the ranking member. The informational aspect of 
this has been enormous.
    To the witnesses, my representation of my presence here at 
this time is that we were hearing the secretary of homeland 
security in another hearing how much of a complement it is in 
getting the right information from both the government and all 
of you.
    Let me focus on the value. I think the American people have 
been given distorted, misdirected information, misinformation 
and intertwining elements of bad acts with DACA recipients, TPS 
recipients versus giving the holistic picture of who we are and 
who immigrants are. So I am going to take my time. Having been 
on this committee for 24 years, that means I have seen a lot of 
immigration hearings and I have heard a lot of opposition to 
immigration hearings. It means that I really can overlook some 
of the points.
    Now, let me say that I abhor drunk drivers. I abhor 
criminal acts. Anyone who has engaged in criminal acts that do 
harm should be subjected to the appropriate process. And I see 
some heads that are shaking. I am going to just ask Mr. Park, 
who is a Rhodes scholar in DACA. We all mistakes, but I 
imagine--could I say that you abhor drunk driving, people who 
drive drunk?
    Mr. Park. Yes, Congresswoman. Thank you.
    Ms. Jackson Lee. Could I say that for you, Yatta, who have 
been here 22 years under the DED, that you abhor, that you 
dislike, that you would not want to see people driving drunk 
and harming people?
    Ms. Kiazolu. Yes.
    Ms. Jackson Lee. Okay. So I won't poll all of you because, 
Bishop, I know you are probably merciful and would have mercy 
on humanity, but I would expect that you would understand that 
people with bad acts, you would not want them to continue.
    I do want to acknowledge Cesar Espinosa and Jesus 
Contreras, who are here, who work with me and stood alongside 
of me--Mr. Chairman, I just wanted to acknowledge them--in the 
battles that we have had in Houston, Texas. I want to welcome 
Mr. Hilario because he is a graduate of the University of 
Houston, and I represent there. So thank you very much for your 
presence. I think who is here on the--Yanez, is it? Yes. So we 
thank you for being here and appreciate your work.
    Let me ask Mr. Jin, it is with a J, sir, Mr. Park?
    Mr. Park. Yep.
    Ms. Jackson Lee. Yes. Let me ask you what the value of DACA 
has been to you.
    Mr. Park. Thank you, Congresswoman, for the question. When 
I first received DACA--and I remember President Obama walking 
into the Rose Garden announcing this program called Deferred 
Action for Childhood Arrivals. And I think I remember that day 
as being really hopeful. And I think that it allowed me to plan 
my life in a way that I could really take into account what I 
wanted to do for this country and for my community.
    Ms. Jackson Lee. And you wanted to do good. And I am sorry 
to cut you off, but I have other questions. But I wanted to 
point out that you were a child and now you want to do good.
    Mr. Park. Yep.
    Ms. Jackson Lee. And you are both a Rhodes scholar and a 
Harvard graduate. I expect you will do good.
    Let me ask Yatta, if I might. Obviously I am very familiar 
with DED, the turmoil, the violence in Liberia. You have been 
here 22 years. What has this meant to you?
    Ms. Kiazolu. Having DED has allowed me to stay close with 
my family. It has allowed me to go to college and explore my 
own interests. And that is why I am interested in higher 
education right now.
    Ms. Jackson Lee. And I thank you.
    I heard you, Yazmin. Tell me what it is to be fearful that 
someone is going to snatch you away from your family and your 
family is going to be deported. All you want to do is serve 
this country in whatever way you can. What does it mean? What 
is that fear like?
    Ms. Irazoqui-Ruiz. It is a crippling fear. Sometimes when I 
was younger, I would go to school and not know if I came back, 
if my mother was going to be there. If my mom left for work, I 
didn't know if she was going to come home from work, especially 
when we were living in Phoenix, Arizona and Maricopa County.
    Ms. Jackson Lee. Let me ask Bishop Mario Dorsonville on the 
need for compassion and fixing this.
    As you do that, Mr. Chairman, let me acknowledge I have a 
TPS bill, H.R. 6325. And I have comprehensive immigration 
legislation that I hope that we can proceed on in a 
compassionate way.
    But, Bishop, would you share with us?
    And, Mr. Chairman, I am going to ask unanimous consent to 
put in the record a series of letters from the faith community 
supporting our compassion and respect, if I could. And could 
you----
    Chairman Nadler. Without objection, the documents will be 
admitted.
    [The information follows:]

      

                 Rep. Sheila Jackson Lee For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. Jackson Lee. Thank you, Mr. Chairman.
    I just wanted to get the question in before the bell, which 
is the need for compassion to fix this problem.
    Chairman Nadler. You didn't get the question before the 
bell, but the witness may answer the question.
    Ms. Jackson Lee. Mr. Chairman, you are kind. Thank you. 
Thank you very much.
    Bishop Dorsonville. Well, that is a good point to raise it 
during Lenten season.
    Ms. Jackson Lee. Yes, sir.
    Bishop Dorsonville. We got the experience of forgiveness 
from God. And we are just given the good news about forgiving, 
embracing, and trying to build up other people's lives. I 
really think that when you said, Congresswoman, respecting the 
fear and the pain of others is something that you can see in 
every single person who has this point in their life, ``Am I 
going to see again my family? Am I going to be ripped off of 
everything I have, everything I have looking forward and I have 
built up?'' for I guess that the compassion means to have 
evaluation, to get the sense of the history of the person. That 
is when the real encounter begins, when I really can see what 
is the problem and how this human person really needs the 
person's evaluation from every single person around that 
person.
    Chairman Nadler. Thank you.
    The time of the gentle lady has expired. The gentleman from 
California, Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    I have heard a lot of opinions today. And everyone is 
entitled to their opinion but not to their own facts. And we 
have heard folks talking about crime and drugs and the wall. So 
let me just put out some facts, and then I am going to ask some 
questions.
    We know that based on the Trump Administration's own data, 
border crossings have decreased 75 percent from 2000 to 2018. 
We know that based on the FBI's latest statistics, violent 
crime and property crime are down across America. We know that 
based on the Department of Homeland Security's own data, 80 to 
90 percent of illegal drugs flow through legal checkpoints. So 
a wall is really something in search of a problem that does not 
exist.
    Now I have got some questions about TPS and DED. These are 
programs that the Trump Administration wanted to terminate and 
has terminated. And it reeks of racial animus. My first 
question is to Mr. Arthur. In January 2018, the Washington Post 
reported during discussions about providing protections to 
immigrants from Haiti, El Salvador, and African countries, 
Donald Trump said, ``Why are we having all of these people from 
shithole countries come here?'' Mr. Arthur, do you agree with 
the President that these are shithole countries?
    Mr. Arthur. Absolutely not.
    Mr. Lieu. All right. Thank you.
    So, Yatta, thank you for being here today. I know you have 
shared your story with me and my district staff. I do want to 
put on the record some additional facts. Other than being a 
toddler in Liberia, have you gone back to Liberia at all?
    Ms. Kiazolu. No. I only visited once, when I was a toddler.
    Mr. Lieu. And if you were to be deported, where would you 
go?
    Ms. Kiazolu. I do not know.
    Mr. Lieu. Mr. Palma, thank you for being here today. My 
understanding is you have four children who are U.S. citizens.
    Mr. Palma. Yes, sir.
    Mr. Lieu. If you and your wife were to be deported by 
Donald Trump's administration, what would happen to your 
children?
    Mr. Palma. That is the big question we are trying to answer 
at this specific moment. And that is why I think myself and 
many other TPS recipients are doing everything that is possible 
to keep our families together because the urgency is there, the 
safety of our kids is a priority, and that is why we are doing 
everything we can.
    Mr. Lieu. Thank you. These are cruel actions by the Trump 
Administration.
    I would now like to switch to DACA. Mr. Yanez, thank you 
for being here. Thank you for your testimony. You did say in 
your statement that a vote that goes nowhere is not enough and 
that a clean DACA bill would not pass the House of 
Representatives. I believe that is incorrect. I do believe the 
House of Representatives will pass a clean DACA bill. And my 
view is don't sell yourself short. You have overcome many 
obstacles. Don't sell the House of Representatives short. We 
will pass a clean DACA bill. Public sentiment is on your side 
and on our side. A poll last year from CBS reported that 87 
percent of respondents, nearly 9 in 10 people in America, want 
DACA students to remain in America.
    So we are going to pass that to U.S. Senate. We are going 
to see what the U.S. Senate does. But at the end of the day, 
understand that Lincoln's words ring true then, as it does 
today, which is that public sentiment is everything. With it, 
nothing can fail. Without it, nothing can succeed. So that is 
why we take that vote. That is why we keep pushing this issue.
    And I would like to now conclude by reading some portions 
of President Ronald Reagan's farewell address to the Nation. He 
talks about this incident he had. He said, ``I have been 
reflecting on what the past eight years have meant and mean.'' 
And he talks about this sailor who, like most American 
servicemen, was young, smart, and fiercely observant. And the 
crew spied on the horizon a leaky little boat. Crammed inside 
were refugees from Indochina hoping to get to America. The 
midway sent a small launch to bring them to the ship and 
safety.
    As the refugees made their way through the choppy seas, one 
spied a sailor on the deck and stood up and called out to him 
and yelled, ``Hello, American sailor. Hello, freedom.''
    And Reagan concludes towards the end. And how does this 
city on this winter night stand? ``More prosperous, more 
secure, and happier than it was eight years ago. But more than 
that: after 200 years, 2 centuries, she still stands strong and 
true on the granite ridge, and her glow has held steady no 
matter what storm. And she is still a beacon, still a magnet 
for all who must have freedom, for all the Pilgrims from all 
the lost places who are hurtling through the darkness, toward 
home.''
    And, Mr. Chair, I would like to enter the January letter 
from 1989, the address of Ronald Reagan to the Nation, for the 
record.
    Chairman Nadler. Without objection.
    [The information follows:]

      

                      Rep. Ted Lieu For the Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lieu. And I am going to conclude by saying that my 
parents are immigrants. They had little skills when they came 
here, the same as Donald Trump's grandfather, who spoke little 
English and came and was a barber.
    And, Mr. Arthur, I think your view that we should only 
allow immigrants in based on skills is deeply offensive. 
Neither Donald Trump nor I would be here today if that, in 
fact, were the law. And it is so, in fact, radical that even a 
number of U.S. Republican senators could not vote for your 
proposal.
    With that, I yield back.
    Chairman Nadler. I thank the gentleman for yielding.
    The gentleman from Colorado, Mr. Neguse.
    Mr. Neguse. Thank you, Mr. Chair.
    I want to echo my good colleague from California's 
comments, Mr. Lieu. My parents were refugees as well from East 
Africa. And I think of the value that immigrants bring to this 
incredible Nation of ours. And I have been so moved and was so 
moved earlier this morning hearing the testimony of these young 
people, in particular, hearing your hopes and your dreams. And 
I want to thank you for your courage, for sharing your story, 
not just with this committee but with countless Americans who 
are watching these hearings as we speak.
    I as the son of African refugees certainly would not be 
sitting as a member of the United States House of 
Representatives were it not for this country's willingness to 
welcome them as refugees with open arms. And so I hope and I 
trust that the House will finally address this issue and 
provide the protection that our dreamers and the folks in the 
TPS program so desperately need. And so I appreciate you 
testifying today.
    I know we have heard some very compelling stories in 
discussions. As a Coloradan, I would be remiss if I didn't 
share the story of one particular individual back in my 
district, Yeck Raj Decal, who is a father, a teacher, a 14-year 
resident of Colorado, and a TPS recipient who is a member of 
our vibrant Nepalese community.
    I know many of you here are aware that Nepal is one of the 
six countries whose TPS status was recently terminated by the 
Trump Administration. Four of these countries received an 
extension while their cases proceed through the courts. But, as 
we all know, Nepal and Honduras are not members to this 
extension. So, notwithstanding the outcome of recent court 
filing, Nepal looks to see its termination go into effect June 
24th of this year. That means that Yeck Raj and his family, who 
are active members of our community, will be forced to leave 
and return to Nepal.
    In Nepal, Yeck Raj, his wife, and two daughters lived 
through unwarranted violence from the Maoist insurgency. They 
moved from city to city to keep their family safe. Yeck Raj 
left his job as a teacher in order to ensure the safety and 
security of his family. And after years of struggling to find 
consistent work or make enough for his family to live on, he 
made the terrifying, yet courageous, decision, as so many 
others have done, to come to the United States. For 15 years, 
his wife and two daughters have lived in the United States. 
Colorado is their home. He provides for his family through his 
job as the head chef at local restaurants. And his daughters 
are now 22 and 24 and have gone on to earn an M.B.A., attend 
nursing school, and earn a living. They are an example of the 
promise of the young folks, just as the young people who are 
gathered here today.
    Yeck Raj, like many TPS holders, is deeply embedded in his 
local community. And to uproot the family would be a loss for 
not just his family and friends but a loss for our shared 
Coloradan community. And, of course, if this hearing has made 
anything clear, it is that his story is not unique, that there 
are countless, indeed hundreds of thousands, of people just 
like him, including some of our witnesses today.
    To that end, Mr. Palma, in listening to your testimony this 
morning, I was particularly moved that obviously you not only 
supported and raised a wonderful family as a TPS recipient but 
now serve as such a strong advocate on behalf of TPS recipients 
across the country. And I understand that, you know, in some 
sense, TPS recipients are all kind of going through a similar 
experience, facing the real possibility that the life that they 
and their family have built in the U.S. is about to come 
crashing down.
    So I am curious. In serving as an advocate and a 
coordinator of the National TPS Alliance, could you speak to 
the impact that this particular group has had on their personal 
communities, both socially and economically, as well as, you 
know, what you have learned in your interactions with different 
members of the TPS community?
    Mr. Palma. Thank you, Congressman for the question. I think 
one of the beauties about the National TPS Alliance is that the 
TPS recipients are self. And when I say, ``the TPS 
recipients,'' I mean people from different countries as we 
believe we should find a permanent solution for everyone who is 
protected by TPS. What I have found is like some of the words 
that you were saying. People are like rooted within the 
community. Many people are studying to become professional. 
Some others are cleaning, like this beautiful building; across 
the country are working in different places. Some others are 
domestic workers. So I have found out that many people are very 
motivated. And they are also planting a seed for future group 
of professionals, like 270,000 U.S. citizen kids.
    The reality is that this is urgent. And I really hope 
Congress will take that in consideration and move legislation 
that will provide permanent residency for people with TPS and 
DACA. And I think at this specific moment, we also need to be 
thinking about DED, which is a very close deadline. And there 
are families suffering for this. And we should take that in 
consideration and moving forward a legislation to provide for 
this.
    Mr. Neguse. Thank you, Mr. Palma. I share your urgency. We 
can get this done. We must get this done. And we will get this 
done.
    Chairman Nadler. The time of the gentleman has expired.
    The gentle lady from Texas, Ms. Garcia.
    Ms. Garcia. Thank you, Mr. Chairman.
    And I, too, want to thank all of the witnesses and thank 
you for your patience. And to many of you in the audience, I 
know I saw you this morning at the press conference. And you 
know that there is a lot of commitment here. There is a lot of 
passion here. There is a lot of hard work being put in place to 
make sure that this, in fact, does get done. And we will 
continue to fight, not only today but tomorrow, until we make 
sure that it does.
    And, Bishop, I wanted to thank you for reminding us today 
is the beginning of the Lenten season and that it is about 
forgiveness and it is about acceptance. And for me, as someone 
who considers herself someone that relies a lot n my faith in 
terms of the foundation of who I am, I can tell you that when 
you quoted in your written testimony, you know, ``I was a 
stranger'' and you were welcomed here, that is the bottom line 
for this discussion, is it not? Is it not about welcoming the 
strangers? Is it not about dignity and respect? And I wanted to 
start with you because there used to be an old regulation that 
was written, old fire and regulation that they used to practice 
in ICE, where they would consider some places safe community 
places, including schools and churches and courthouses and 
hospitals, funerals and weddings. For some of us, I would add 
quinceaneras but any place of community gathering. So are you 
concerned that some of the ICE activity and some of the things 
that are going on may someday impact the workings of the 
church, not only your church, by the way, but all places of 
worship?
    Bishop Dorsonville. All the places of worship.
    Ms. Garcia. All places of worship.
    Bishop Dorsonville. Yes. Unfortunately, we have learned 
through the years that yes, there have been presence of ICE in 
these places. Fortunately, the churches, the pastors, people 
who are around themselves, they defend them. And they have been 
always very careful about this kind of illegal activity because 
it is freedom of religion and freedom of worship for I really 
think that that is something that we really need to continue to 
sponsor.
    Now, what you are saying about faith and community, it 
works together. It is not only what we believe but what we 
build as a community of believers. And that is when there is 
solidarity, fraternity, and we ensure that these youngsters, 
kids, families are going to continue to drive because they feel 
like fed by the community that is surrounding them with love 
and support.
    Ms. Garcia. Well, we want them all to reach their God's 
potential. And certainly, you know, continue these programs and 
ensuring full citizenship and full immigration reform is the 
goal.
    And I wanted now to turn to Ms. Irazoqui-Ruiz. You said in 
your written testimony that, ``The core of the DACA is the idea 
that immigrant youth should be protected without hurting other 
immigrants, without building more detention camps, hiring more 
deportation agents, or ripping apart any more families.'' Tell 
me why you believe that in like a short phrase or two so that I 
can move on and ask all of the DACA recipients the same 
question.
    Ms. Irazoqui-Ruiz. I believe that I am here not just out of 
my own accord. My mother is the reason that I am here. She is 
the reason that I have been able to accomplish everything that 
I have accomplished. And our stories are very intertwined. You 
can't separate our stories. And that is why I believe that you 
can't give me protection intended to harm the very woman who 
has given everything for me without harming me, too.
    Ms. Garcia. So you want to keep your family together?
    Ms. Irazoqui-Ruiz. Correct. And I keep hearing this idea of 
teen migration. I would like to say that it is family 
reunification. And I think that----
    Ms. Garcia. Absolutely. I agree with you.
    Ms. Irazoqui-Ruiz [continuing]. That is a value that we 
have in our country.
    Ms. Garcia. All right. And, Mr. Palma, what about you, sir? 
Do you agree with that, her statement?
    Mr. Palma. Absolutely. I think many people are facing the 
reality of being separated. And I think that we should be 
looking for where to keep families together, which is one of 
the big values in any society.
    Ms. Garcia. All right. And I can't see your name from here, 
but I wanted all of you to respond to the same question.
    Mr. Park. Excellent. Thank you for your question. And so, 
you know, sometimes I get discouraged about, you know, the 
discourse and the dialogue around immigration.
    Ms. Garcia. Well, please don't. There is hope.
    Mr. Park. Right. And I think when I do get discouraged, I 
just look at my father's hands. You know, they are rough and 
coarse and broken because of the kind of work that they, that 
my parents, do for, eventually for, ultimately for, me. And I 
think I come, I stand before you today as a DACA recipient, but 
my achievements and my ability to have succeeded in America 
does not exist without my parents, doesn't exist without the 
community. And so I think that is important for this committee 
to consider.
    Ms. Garcia. All right. And ma'am?
    Ms. Kiazolu. I believe that it is impossible for me to be 
where I am today without my family members. Their love and 
support has made it possible for me to continue my education. 
And there is nothing I wouldn't be able to do without the 
Liberian community in general. And so that is why it is 
important for us to keep our families together, because they 
provide us the support that we need.
    Ms. Garcia. Okay. And, Mr. Palma----
    Chairman Nadler. The time of the gentle lady has well 
expired.
    Ms. Garcia. Thank you, Mr. Chairman. We will talk 
afterwards. Thank you.
    Chairman Nadler. I recognize the gentle lady from 
Washington, Ms. Jayapal.
    Ms. Jayapal. Thank you so much, Mr. Chairman.
    And I think some of you know that I have been a long-time 
advocate for immigrant rights, 15 years in the movement, in the 
streets fighting for comprehensive immigration reform, for 
humane immigration policy in our country. And it is a real 
privilege now to be here in Congress and do that. But the 
inspiration for this movement and the courage and the 
resilience and the sacrifice of immigrants across this country 
and of dreamers who have come forward and told your stories and 
fought in the streets and walked night after night after night 
on marches and refused to sit down, refused to take no for 
something that is a core human right, to be acknowledged for 
what you bring to this country is so incredible.
    And I just wanted to start my comments by saying that first 
and to say to our faith community and to say to all of the 
businesses that have been a part of this movement how deeply 
important, particularly, Bishop, the faith community that has 
made this clear that it is our responsibility to welcome that 
stranger. It is our responsibility to make sure that we are 
putting forward a policy that we can be proud of, that we can 
wake up every morning and look at ourselves and know that our 
moral courage is the thing that we have to stand for first and 
foremost.
    So I want to thank everybody on the committee, all of our 
witnesses for being here to testify and for your stories and to 
just make the point that we talk about statistics, you know, 
over one million people set to lose status as a result of 
President Trump's cruel termination of the DACA program and 
TPS, all of the over 300,000 TPS recipients from Haiti, El 
Salvador, Nicaragua, and Sudan, who can now take a breath for a 
year but that sense of crisis. When we talk about those 
numbers, your stories allow us to remember that these are real 
people. Every single one of these numbers is a real person, a 
family tied to that person, and a community tied to that family 
and, therefore, a country tied to each one of you.
    And so I wanted to just recognize the stories of two 
dreamers in my district that I am very, very close to: Paul and 
Jose Quinonez, who moved to the United States when Paul was 
seven and Jose was two. Both of these brothers grew up 
participating in highly capable programs in their schools. And 
their teachers would often talk to them about the high 
expectations that they had set for them and that the brothers 
would be part of the next generation of leaders that their 
community needed.
    Both brothers were less certain about their future when 
they found out about their undocumented status. And then DACA 
was announced, and everything changed. Paul received DACA. He 
enrolled at Gonzaga University, where he obtained a B.A. in 
economics and political science. And after graduating, he went 
on to work at the Washington State legislature and then the 
office of the mayor of Seattle.
    Seeing all that his brother was able to accomplish, Jose 
was getting ready to apply for DACA. And, unfortunately, 
President Trump cruelly terminated the program right before he 
began his engineering studies at the University of Washington. 
And now Jose's future is more uncertain than ever, and he finds 
his dreams in jeopardy.
    Nobody on this committee and I think looking at the room 
behind you, nobody in this room is surprised by these stories 
because they are happening every single day. And so I just want 
to turn first to our TPS witnesses and ask Mr. Palma, why do 
you think people are so much less aware of TPS, Temporary 
Protected Status, than about DACA and dreamers because when I 
look at the list of TPS countries, El Salvador, Haiti, 
Honduras, Nicaragua, Sudan, I see hundreds of thousands of 
people who have been living in this country and working in our 
communities for two decades with legal status. So I would just 
like your opinion on why that is and what we can do to change 
that and show the importance of TPS.
    Mr. Palma. Thank you for your question. A few things I 
think are happening. One is that this is a community that has 
been protected from deportation through the TPS program. This 
is a community that has been focusing and building their 
family, building businesses, working two, three jobs in order 
to support their kids to have a life, some of us participating 
in our own communities as volunteer. Like I was soccer coach 
for many years. I had been volunteer in theLynn Community 
Health Center. And I think that those are the things that the TPS 
community has been doing. It isn't right now that we are facing 
deportation. That is really very--you know, there is a lot of fear in 
the need to raise our voices and really work hard to achieve permanent 
residence.
    Ms. Jayapal. Thank you.
    And my last question before my time expires is some of you 
are in mixed-status families. And I just would like Ms. Kiazolu 
and Mr. Palma to just tell us what happens if other members of 
your families who are citizens--what happens to them if you 
lose your status?
    Mr. Palma. Well, as I said in my testimony, my son is 18 
years old, applying to colleges at this specific moment. Just a 
few months ago, he asked me, ``Dad, should I put my name in the 
college application because we are not sure whether you are 
going to still be here when I get accepted to college?'' That 
dream can be trunc. by taking TPS away from me. That kind of 
biologist who is going to be saving life in the future can be 
shut down because of this cruel decision at this specific 
moment. And if we really believe in the American dream, we 
should be thinking about how to motivate people like my son to 
be and achieve the full potentials.
    Ms. Kiazolu. So I am fortunate that I am surrounded by a 
family who are U.S. citizens and permanent residents. I have an 
aunt who is a U.S. citizen who is a cosigner to my student 
loans. And in 25 days, when DED ends, I have no idea how I will 
be able to continue making those payments on my student loans. 
I have a younger sister who is getting ready to attend college 
in the next year. And I have been there supporting her, helping 
her think about what going to college looks like. And so there 
are many more examples I could offer, but our lives are 
intertwined with permanent residents and U.S. citizens because 
they are us.
    Chairman Nadler. The gentle lady's time has expired.
    The gentle lady from Texas, Ms. Escobar, is recognized.
    Ms. Escobar. Thank you, Chairman. I am recognized and I get 
to sit at the big kids' table today. [Laughter.]
    Thank you all very much for being here, for your incredible 
testimony, for your stories. It has been such a privilege to 
listen to you all and hear about your heroism and the 
patriotism of our TPS recipients, our dreamers, our DACA 
recipients.
    I am from El Paso, Texas, the safe and secure U.S.-Mexico 
border. I say that every time I introduce myself. I sound like 
a broken record I know, but hopefully one day, it will sink in. 
I see El Paso and the southern border as the new Ellis Island, 
and I am very proud of that fact.
    But earlier in the hearing, I heard a couple of things that 
are alarming to me that I think are important to raise publicly 
and in this hearing. One of the things that I heard about was, 
again, this idea that we have to secure the border, ``secure 
the border,'' before we advance comprehensive immigration 
reform. And I hope it is not being the same logic used to 
advance protections and permanent solutions for all of you.
    The other thing that I heard was the consistent mentioning 
of the increase in Central American families arriving at our 
southern border. And I say that I am alarmed because what those 
of us on the border have been hearing for over 15 years, as we 
have been asking for comprehensive immigration reform, as we 
have been asking for permanent fixes to the situations that you 
all are in, is that first we have to secure the border. And it 
has been 15 years of that. It has been hundreds of millions of 
dollars. The size of Border Patrol has tripled. The size of ICE 
has tripled. Communities like mine have a wall. We now have 
concertina wire at our ports of entry. Our ports have been 
hardened. And all of that has done nothing to change crime 
statistics in communities like mine because communities like 
mine were safe long before those tactics. They have remained 
safe since those tactics. And what makes us safe are folks like 
you. Exactly you are precisely what makes us safe.
    And I raise this issue because it feels like it will never 
be enough. We will never spend enough money. We will never put 
up enough wire. We will never do enough to ``secure the 
border.'' And so when I hear even members on the panel say, 
``Let's secure the border,'' it makes me think that we have yet 
to understand the fact that that goalpost will continue to keep 
moving, keep moving, keep moving because the border for some 
folks will never be secure until there are zero people coming 
in. That is never going to happen. That is just not possible. 
Nor should it be something that we want.
    The border I want to say again has never been safer, never 
been more secure. And the Central American families, which is 
true they are arriving in increasing numbers, but, as 
Congressman Lieu mentioned, we are still not at the numbers 
that we saw two decades ago. And those families are not coming 
over to do us harm. Those families are processed by border 
patrol. They get fingerprinted. They get background checks. If 
they were a threat, we would have heard about the threat by 
now.
    Earlier, one of my other colleagues, Mr. Biggs, talked 
about incentives and disincentives, but we never hear from 
Congress and we haven't heard from leadership, from the White 
House how to get to the root causes.
    Most of these families--and I have sat down and eaten with 
many of these Central American families, served them meals. 
They don't want to leave, but they have no other choice. And so 
my fear is the point I am getting at is my fear is by 
conflating all of this, it may be an obstacle being put up to 
prevent progress on this.
    And so, Ms. Ruiz, you mentioned earlier the mental health 
impact, how all of this has impacted your mental health and the 
breakdown that you had. I am curious from you because you 
mentioned mental health. What does it feel like and sound like 
when you are linked, when you, your life, is linked with 
securing the border?
    Ms. Irazoqui-Ruiz. It is a little bit frustrating, to be 
completely honest with you, because I do live in a border 
State. I live in New Mexico. And even before that, I lived in 
Arizona. And there is already a wall. People are talking about 
creating, channeling more resources to a wall. The wall is 
already there. And those of us who live there know that.
    I am by no means an immigration policy expert, but I can 
talk about my own personal experience. And I hear a lot of 
comments on both sides of the aisle. And all I can think about 
is my experience of being here my entire life, of working with 
my community and wanting to give back to my community, and 
seeing that that is being impeded by the tenuous future of 
DACA.
    Ms. Escobar [presiding]. Thank you so much.
    I think we are going to have to recess. We have to go take 
votes on the floor. That is why everybody left. We have been 
summoned to the House floor for votes. We will take a short 
recess and reconvene as promptly as we can after we vote. The 
committee stands in recess.
    [Recess.]
    Ms. Scanlon [presiding]. The Judiciary Committee will come 
to order.
    I'll recognize myself for five minutes. So I represent 
Pennsylvania's Fifth District, one of the most diverse 
districts in the country and where immigrants from all parts of 
the world have enriched our community.
    The Fifth District's history of welcoming those of 
different backgrounds and faiths dates to the arrival of 
William Penn in Chester, Pennsylvania, in my district in 1682, 
and his founding of a colony that encouraged diversity and 
provided sanctuary for people of different faiths from across 
the globe.
    Some come to Pennsylvania to seek a better life and 
economic opportunity, others come seeking safety and refuge 
from violence in their home countries. Although everyone's 
story is a little different, there's a common thread that binds 
their immigrant experience. They come seeking a brighter 
future.
    Before I entered Congress, I had the privilege of 
representing some of these strong and resilient people as a pro 
bono attorney. I met folks from Haiti who sought safety for 
their families after the devastating earthquake in 2010 and 
refugees from African and Central American countries where the 
Rule of Law had broken down and violence erupted.
    And I had the privilege to work with Dreamers as they tried 
to navigate their path to adulthood in the only country that 
they've ever called home. So I want to say directly to my 
constituents who are here as immigrants, whether you're a 
Dreamer, a TPS-holder, a DED recipient, or the beneficiary of 
another program, we see you and we value what you bring to our 
country.
    I see the nurses who care for our elderly, the teachers who 
are educating our children, and the public servants bettering 
our communities. I'm sorry this Administration has kept you in 
limbo and threatened to break the promises our country has made 
to you. I'm so glad that we're here today speaking to some of 
those incredible immigrants directly.
    So with that, Ms. Kiazolu, I just signed on to a letter 
asking the Administration to extend the Liberian DED Program. 
As I read your testimony, I was struck by the fact that after 
six years in a Ph.D. program, when you're just a few months 
away from graduating and presumably accepting a job, you're 
just 25 days away from losing work authorization and your 
ability to remain in the country.
    I know that you touched on this briefly, but can you talk 
to us about any opportunities that you've had to forego due to 
the questions about your status?
    Ms. Kiazolu. Yes, so I've had to adjust my dissertation 
research because my advanced parole was never adjudicated and 
so that's meant having to essentially start again with the 
process that was already time-consuming.
    I've had to pass two teaching opportunities at California 
State, Long Beach, where I would have been an adjunct 
instructor, and those opportunities would have been beneficial 
for progressing my professional development.
    And in just the normal life, I haven't been able to take 
trips with my friends and while I should be preparing for the 
job market, I've lost a sense of security and peace of mind.
    Ms. Scanlon. Okay. Thank you for that.
    Ms. Irazoqui-Ruiz, I know you've testified that members of 
your family have different immigration statuses and I know that 
although you're planning to be an OB-GYN, you have siblings and 
family members who do other important work in your community.
    Can you speak to the impact that the uncertainty created by 
this Administration's policies around immigration status have 
had on you and your extended family?
    Ms. Irazoqui-Ruiz. Thank you for the question. I really 
appreciate the opportunity to be here and I feel very 
privileged to be able to use my platform as a DACA recipient 
and as a medical student to share the stories of my community 
and they can be reflected in my own family.
    My twin sister is a legal permanent resident now. She was a 
DACA beneficiary. She's currently a business and tax law 
attorney and because of her, I am able to focus on medical 
school and only worrying about my tuition because she's able to 
provide a roof over my head.
    My younger brother, Manny, he's a mechanic and every time 
my car breaks down because I am a limited means medical student 
with very limited financial opportunities, he fixes my car.
    My other brother, he is a small business owner, and when I 
don't have money to pay my health insurance because I need 
health insurance as a medical student, he provides the bill, 
and so these are just examples of how immigrant families are 
very diverse and not everyone is a doctor, not everyone is a 
lawyer, but that doesn't mean they're contributing any less to 
their families or to their communities.
    Ms. Scanlon. And just to clarify, your two younger brothers 
are American citizens?
    Ms. Irazoqui-Ruiz. They were born in Arizona, yes.
    Ms. Scanlon. Okay. Thank you.
    With that, I will yield back, but first I'll ask unanimous 
consent to enter an article entitled ``TPS Workers are 
Rebuilding States Devastated by Natural Disasters'' by the 
Center for American Progress.
    Hearing no objection, it is entered into the record.
    [The information follows:]

      

                  Rep. Mary Gay Scanlon For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Scanlon. And next, I would recognize the gentlewoman 
from Georgia.
    Mrs. McBath. Thank you, Madam Chair.
    First, I want to say thank you to each and every one of you 
that are here providing your testimonies today. I'm so sorry. 
I'm running in between two different hearings today. So I do 
have your written testimony and thank you for submitting that. 
But I do want to thank you for sharing your personal stories 
with us.
    When we talk about Dreamers, temporary protected status 
recipients, and deferred enforced departure recipients, it's 
important that we have a full picture of the lives that you've 
led.
    Others from Georgia's Sixth District, and I represent 
Georgia's Sixth Congressional District, have experienced your 
same struggles and have shared similar stories with me and, 
trust me, I have spent my first few months here in Congress 
working on specific cases within my district.
    I heard from a Dreamer who teaches in my community. She 
teaches in the community that I now represent, and I've heard 
from TPS recipients who escaped dangerous situations in other 
parts of the world and they're now living in my district. 
They're raising families and they're working long hours to send 
their U.S.-born children to college.
    To see their impact on our economy, all you need to do is 
drive down the street in my district and you'll see shop signs 
in multiple languages, new local businesses where there weren't 
businesses before, and just many vibrant cultural community 
centers, and I'm proud of our diverse communities because 
that's what America is, and I value the economic benefits 
created by immigrants and their families in my district.
    Because I did not have the benefit to actually hear your 
testimonies, could any of you speak a little more to the local 
economic effects of your jobs or the jobs or businesses of your 
family members? I would love to hear those stories. Anyone? Go 
ahead.
    Mr. Palma. Yeah. Thank you. Thank you for the question.
    I think there are many stories I can share from TPS 
recipient perspective. For example, in my testimony, that is 
the story of Jose Arriaga, who's a business owner from Boston, 
Massachusetts, who is the owner of a construction company, 
which is a multimillion dollar business, and the interesting 
part about that story is actually he employed dozens of people. 
The majority of them are U.S. citizens. There are only two 
people with TPS which is himself and one more person. Everyone 
else is U.S. citizen and permanent residency, just to highlight 
one example of many others that I can tell you from across the 
country. So that's just one example.
    Mrs. McBath. Thank you.
    So a study by USC and the Center for American Progress 
found that Georgia's Sixth Congressional District, my district, 
would lose a $117 million in GDP without DACA workers and 
that's without counting TPS or DED workers.
    Georgia has 8,500 TPS recipients and a thousand of those 
work in construction. So that's another important economic 
component for my district.
    Could you, any one of you, how would permanent residency 
change your economic outlook and your ability to plan for your 
future or your children's futures?
    Ms. Irazoqui-Ruiz. I'd like to answer this question but 
also backtrack a little bit.
    My twin sister Jasmine, she's an attorney, and she has a 
project for economic justice in the state of New Mexico and she 
works with immigrant business owners and immigrants are three 
times more likely to open their own small businesses and employ 
U.S. citizens and so they're a huge striving force of the 
economic system today and I don't know the specifics because 
I'm not an economics expert, but the fact that these immigrants 
are resilient and they persevere to open their own businesses 
and give jobs to U.S. citizens just shows the magnitude of the 
contribution of the community.
    And to your second question, how would a pathway to legal 
permanent residency and citizenship affect me, I spoke about it 
earlier. I'm trying to begin the process of apply to residency 
programs and that's going to be a huge question as I begin to 
apply and begin to interview in residency programs.
    How do they know that their investment in me as a resident 
position and training will not go unfounded because right now, 
my DACA will expire at the end of this year? I'm still waiting 
to hear back if they're going to renew my DACA. It's been 
awhile.
    And so that's a huge impact. Will I even be able to 
practice medicine, which has been my lifelong goal that I've 
been working for, thank you.
    Mrs. McBath. Thank you.
    Madam Chair, I yield back.
    Ms. Scanlon. There's no more time.
    The Chair recognizes Mr. Correa.
    Mr. Correa. Thank you, Madam Chair.
    First, I also want to thank the committee for holding this 
most important hearing, and I want to thank each and every one 
of you today for making a track to be in front of us today and 
share your personal stories.
    I'm Congressman Luke Correa. I represent Central Orange 
County, which is the richest county in the richest state in the 
richest country in the world, and grew up in Orange County, I'm 
blessed to say, and we're little kids--I'm an American-born 
citizen, but I remember growing up and the kids around me, when 
they saw any police officers, anybody like that, coming by, 
they would run and I could never figure out why there was so 
much fright of law enforcement. It's just a uniform and later 
on, I found out most of my friends were undocumented. That was 
back in the '60s, and here we are back in 2019 and as the old 
saying says, the more the world changes, the more it stays the 
same.
    I know Orange County has gone from a population of a 
150,000 in the '50s to about three million today. In my 
district, I know one of my colleagues said it but I'm going to 
say it here today, that the real new Ellis Island of the world, 
of the United States is Central Orange County. We have more 
immigrants there from any other place in the world.
    Growing up again, wave upon wave of Central American, Latin 
American immigrants, then came the Vietnamese, and today huge 
influx from the Middle East, we're all making it work and 
making Orange County one of the most prosperous counties in the 
United States.
    Let me share a quick story with you. All my kids have gone 
to public school in Central Orange County, in the ``hood,'' so 
to speak, and my daughter about two years ago came home and she 
brought with her two of her best friends, said, Dad, I have two 
friends that have a problem and want to talk to me, and I said, 
oh, my God, it's probably something very serious, and it was.
    They said, Mr. Correa, I want to talk to you about our 
immigration status. We're both Dreamers and we're scared to 
death what's going to happen to us. Can you help us? Our 
families are all here and we don't want to be law-breakers. You 
know, we follow the rules. We registered through the 
authorities. We've told people who we are. We're paying our 
taxes, studying hard. What else can we do? Help us. What is it 
that we can do so we won't have to leave the country?
    And it was a hard question for me. I almost, you know, 
started tearing and I did everything I could not to start to 
show them that the situation is a serious one. I wanted to give 
them hope and so what I told these two young ladies was you 
keep studying hard, you keep working really hard, you keep 
living the American dream, and let me fight your fight in 
Washington, D.C., and that's what I've tried to do over the 
last plus two years I've been in Congress.
    I've tried to fight the fight for them and this is not a 
Democrat or Republican issue. Polls show 70 percent of 
Republicans support a pathway to citizenship for all of you, 80 
percent of Democrats, and I have to plug in a quick commercial 
for Californians because the last president to succeed in 
passing immigration reform was a California Republican, Ronald 
Reagan, a great California president, Republican, who had the 
guts to step up and say I'm going to do the right thing for 
this country, and that's the last time we had any kind of 
immigration reform.
    So I say to you it's not a D or an R issue. It's the right 
thing to do as Americans. In California, we have Silicon 
Valley. We have high-tech operations everywhere and they're 
based on the work, the technology, the intellect of immigrants, 
and so today, I want to thank you for being here.
    I especially want to thank the Bishop and all of the 
clergy. I'm very proud to be a Catholic because the Catholic 
Church has taken with other religious groups a very strong 
stance on doing the right thing, which is advocating like Jesus 
Christ did for immigrants.
    Thank you very much for being here and with the 26 seconds 
I have left, I'm going to say we're going to keep fighting 
because it's the right thing to do, but I'm going to ask all of 
you here if you can tell me what happens if in fact President 
Trump has his way and we don't have an adjustment status for 
you. Open question.
    Mr. Palma. So I can start with that by I have nine months 
to really get to that reality and I think, you know, for you 
all that are parents just to think about what would you say to 
those kids about what can happen.
    You know, when your son is applying to college or your 
seven-month little girl is just making a smile and you start 
thinking what's going to happen with this U.S. citizen kid. 
That's the reality that we are facing and that's the big 
question that we are looking for answers.
    I honestly don't know. I don't know, you know, what I will 
do when that day comes. What I do know is that--and I hope that 
legislators will find a way to pass a permanent residency for 
people with TPS because it's the question that we are 
struggling. It is the nightmare that many of us are living in 
this specific moment, but we still want to keep hopeful because 
that's the U.S. history of opportunity and we hope that 
opportunity for us for permanent resident will come in the near 
future.
    Mr. Correa. Mr. Graham, did you have a comment?
    Mr. Graham. Might I add to my colleague's eloquent answer?
    I mentioned that our scholarship program has 3,400 students 
in universities around the United States. I'm proud to say that 
one of our partner colleges is your alma mater, Cal State 
Fullerton. Another is Congresswoman Escobar's alma mater, UT El 
Paso.
    Ms. Scanlon. Thank you. I'm afraid the gentleman's time has 
expired.
    Mr. Graham. All right.
    Ms. Scanlon. And I would recognize the gentlewoman from 
Pennsylvania.
    Mr. Correa. Thank you very much.
    Ms. Dean. Thank you, Madam Chair.
    Last and I hope not least, I'm delighted to be here with 
you today. I think I'm the last. So thank you for your 
indulgence and your patience and for being with us and 
informing us and letting us know personally what this is all 
about and let's not forget why we're here.
    We're here because of an Administration who decided to 
choose fear over hope, to choose shutting doors instead of 
opening doors, and so this is self-inflicted by this 
Administration.
    We know what the Obama Administration offered and it was 
the wise move. Obviously Congress now must step in and make 
permanent a pathway to citizenship, but I just don't want it to 
be lost on anybody that this is because of the actions of this 
Administration shortly after taking office, saying we want to 
shut the door on Dreamers and TSP and we want to instill fear.
    Imagine the mission of this Administration and you are not 
the only ones that this Administration has chosen fear over 
hope, over citizenship, over the ideals of American values.
    So, Madam Chairman, I thank you. We heard so much today 
about how you improve our world. You don't take from us. You 
improve our world, how you grow our economy. If people don't 
think of it in any other way, let's think of it in economic 
terms.
    The analysis from the Center for American Progress reveals 
the U.S. can expect to lose $164 billion in GDP over the next 
decade if workers from El Salvador, Honduras, and Haiti are 
removed from the labor force. Social Security and Medicare 
would face a reduction of almost $7 billion.
    Additionally, their removal would cause employers across 
the country to experience almost $1 billion in turnovers.
    I'll give you a little snippet from my state. I'm from 
Pennsylvania. In my home state, we would forfeit 85 million in 
state GDP annually due to the loss of our 2,500 TPS-holders 
from El Salvador, Honduras, and Haiti alone, and as one of you 
described so beautifully and so heartbreakingly, this whole 
experience has been dehumanizing.
    We should not be in the business of dehumanizing and so I 
would ask, if I may, Bishop, I just was reading your testimony 
and your recommendations. So from your mission and from what 
you have done over the course of your pursuits, would you talk 
to us with specifics about what we in Congress must do 
following your recommendations?
    Bishop Dorsonville. Well, as a member of the Catholic 
Church and being the voice of my brother bishops, as well, 
every single person and member of the House and the Congress 
has bishops in your cities and in your districts. Encourage 
dialogue, continue to learn the needs of your people, go and 
talk to your leaders of faith, and being able to cultivate this 
kind of encounter, human encounter that will continue to impact 
not by the news but by your own testimony of life.
    I really think that that will be something that I would 
like to recommend to those who need to create and to push for 
the new laws that are going to be so significant in the life of 
the immigrant family. I really think that the laws has to 
continue to empower the family and to empower the sense of 
getting the people to trust, to hope, and to love in the place 
that they are across the country.
    Ms. Dean. I so appreciate that wisdom, that we need to be 
proximate. We need to get close up to understand the plight of 
those who are vulnerable, whether it is this vulnerability or 
those suffering from addiction or those suffering from hunger 
or homelessness. We need to get proximate.
    It's not enough to stand in our houses and say, geez, I 
rail against this group or that group. Get close to them and 
you'll know better.
    If I may, I'd last ask one of the young people and then I 
would ask for unanimous consent at the very end to enter some 
documents.
    But is there something more that's on your heart that you 
really wanted to say and impart to this congressional committee 
at this time?
    Mr. Yanez. I'll say something real quick. I think there's 
enough blame to go around right now. I think we're kind of so 
divisive. I think we need to come back and work on things that 
we do agree.
    It can't just be one or the other, which I think I've been 
proposing. If we want to get something done for the Dreamers, 
if we want to be serious about getting this fixed, there's a 
perfect opportunity with your colleagues on the Republican side 
to bring a permanent solution for Dreamers in exchange for 
border security. I think there's overall consensus to do that.
    Unfortunately, if we focus on one issue, only Dreamers, 
nothing's going to get done and that's unfortunate and it 
ultimately hurts me and breaks my heart because it's really 
false hope.
    Ms. Dean. Mr. Chairman, I see my time has expired, but I do 
believe that the young woman would like to say something, as 
well.
    Ms. Kiazolu. Yes, very briefly. I want to stress that DED 
for Liberia ends in just 25 days and protections for Liberians 
have been in place since 1991. So we're talking about almost 30 
years of protections.
    So TPS and DED recipients need Congress to move 
immediately. For those of us on DED, our lives are on the line 
within a matter of days and so we just ask for an expedient 
response. Thank you.
    Chairman Nadler [presiding]. Do you know how many people 
are on DED roughly?
    Ms. Kiazolu. I believe the estimate, the low estimate's 
around 900, but the high estimates are around 4,000.
    Chairman Nadler. So between 900 and 4,000 people total.
    Ms. Kiazolu. Yes.
    Chairman Nadler. And it expires in 25 days.
    Ms. Kiazolu. In 25 days.
    Chairman Nadler. And it's been in effect since 1991?
    Ms. Kiazolu. We've had TPS and DED between 1991 and 2019.
    Chairman Nadler. So the people who are endangered now were 
basically brought to this country in 1991?
    Ms. Kiazolu. Yes.
    Chairman Nadler. Okay. Yes.
    Ms. Dean. I seek unanimous consent.
    Chairman Nadler. Oh, yes.
    Ms. Dean. My time has expired but if I may. I thank you all 
again.
    Ultimately, I'm going to quote President Barack Obama on 
the announcement of this Trump position that ``this is 
ultimately about basic decency. It's about who we are as a 
people and who we want to be as importantly as that,'' and I 
ask for unanimous consent to offer into the record three 
documents. One are educational groups who have offered us 
information and their opinions as to this. National Education 
Association, the President's Alliance for Higher Ed and 
Immigration, a memo on its statement, and also the full text of 
at that point former President Obama's statement on DACA.
    Chairman Nadler. Without objection, the documents will be 
entered into the record.
    [The information follows:]

      

                   Rep. Madeleine Dean For the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Nadler. I want to thank all our witnesses for 
attending. I want to thank the members who stuck it out to the 
bitter end.
    I hope we'll be able to do something intelligent and 
compassionate here.
    This concludes today's hearing. Without objection, all 
members will have five legislative days to submit additional 
written questions for the witnesses or additional materials for 
the record.
    The meeting is adjourned.
    [Whereupon, at 3:10 p.m., the hearing was adjourned.] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
